<html>
<title> - THE IMPACT OF CURRENT IMMIGRATION POLICIES ON SERVICE MEMBERS AND VETERANS, AND THEIR FAMILIES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
                   THE IMPACT OF CURRENT IMMIGRATION
               POLICIES ON SERVICE MEMBERS AND VETERANS,
                           AND THEIR FAMILIES

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                      IMMIGRATION AND CITIZENSHIP

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 29, 2019

                               __________

                           Serial No. 116-62 

                               __________

         Printed for the use of the Committee on the Judiciary         
         
         
         


      Available via the World Wide Web: http://judiciary.house.gov    
      
      
      
      
                            ______

              U.S. GOVERNMENT PUBLISHING OFFICE 
 38-752                  WASHINGTON : 2020    
      
      
      
      
      
                       COMMITTEE ON THE JUDICIARY

                   JERROLD NADLER, New York, Chairman
ZOE LOFGREN, California              DOUG COLLINS, Georgia,
SHEILA JACKSON LEE, Texas              Ranking Member
STEVE COHEN, Tennessee               F. JAMES SENSENBRENNER, Jr. 
HENRY C. HANK JOHNSON, Jr., Georgia      Wisconsin
THEODORE E. DEUTCH, Florida          STEVE CHABOT, Ohio
KAREN BASS, California               LOUIE GOHMERT, Texas
CEDRIC L. RICHMOND, Louisiana        JIM JORDAN, Ohio
HAKEEM S. JEFFRIES, New York         KEN BUCK, Colorado
DAVID N. CICILLINE, Rhode Island     JOHN RATCLIFFE, Texas
ERIC SWALWELL, California            MARTHA ROBY, Alabama
TED LIEU, California                 MATT GAETZ, Florida
JAMIE RASKIN, Maryland               MIKE JOHNSON, Louisiana
PRAMILA JAYAPAL, Washington          ANDY BIGGS, Arizona
VAL BUTLER DEMINGS, Florida          TOM McCLINTOCK, California
J. LUIS CORREA, California           DEBBIE LESKO, Arizona
MARY GAY SCANLON, Pennsylvania,      GUY RESCHENTHALER, Pennsylvania
  Vice-Chair                         BEN CLINE, Virginia
SYLVIA R. GARCIA, Texas              KELLY ARMSTRONG, North Dakota
JOE NEGUSE, Colorado                 W. GREGORY STEUBE, Florida
LUCY McBATH, Georgia
GREG STANTON, Arizona
MADELEINE DEAN, Pennsylvania
DEBBIE MUCARSEL-POWELL, Florida
VERONICA ESCOBAR, Texas
        Perry Apelbaum, Majority Staff Director & Chief Counsel
                Brendan Belair, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON IMMIGRATION AND CITIZENSHIP

                     ZOE LOFGREN, California, Chair
                PRAMILA JAYAPAL, Washington, Vice-Chair
J. LUIS CORREA, California           KEN BUCK, Colorado, Ranking Member
SYLVIA R. GARCIA, Texas              ANDY BIGGS, Arizona
JOE NEGUSE, Colorado                 TOM McCLINTOCK, California
DEBBIE MUCARSEL-POWELL, Florida      DEBBIE LESKO, Arizona
VERONICA ESCOBAR, Texas              KELLY ARMSTRONG, North Dakota
SHEILA JACKSON LEE, Texas            W. GREGORY STEUBE, Florida
MARY GAY SCANLON, Pennsylvania
                    David Shahoulian, Chief Counsel
                    Andrea Loving, Minority Counsel
                    
                    
                            C O N T E N T S

                              ----------                              

                            OCTOBER 29, 2019

                           OPENING STATEMENTS

                                                                   Page
The Honorable Lou Correa, California, Subcommittee on Immigration 
  and Citizenship, Committee on the Judiciary....................     3
The Honorable Ken Buck, Colorado, Ranking Member, Subcommittee on 
  Immigration and Citizenship, Committee on the Judiciary........    32
The Honorable Jerrold Nadler, New York, Chairman, Committee on 
  the Judiciary..................................................    33
The Honorable Doug Collins, Georgia, Ranking Member, Committee on 
  the Judiciary..................................................    34

                               WITNESSES

Mr. Hector Barajas-Varela, Director and Founder, Deported 
  Veterans Support House
    Oral Statement...............................................    37
    Prepared Statement...........................................    39
Ms. Jennie Pasquarella, Director of Immigrants' Rights, ACLU of 
  California and Senior Staff Attorney, ACLU of Southern 
  California
    Oral Statement...............................................    45
    Prepared Statement...........................................    47
Ms. Margaret D. Stock, Immigration Attorney and Lieutenant 
  Colonel (Retired), Military Police Corps, U.S. Army Reserve
    Oral Statement...............................................    62
    Prepared Statement...........................................    65
The Honorable Mark Metcalf, Former Immigration Judge, Lieutenant 
  Colonel, Army National Guard
    Oral Statement...............................................   100
    Prepared Statement...........................................   102

          LETTERS, STATEMENTS, ETC. SUBMITTED FOR THE HEARING

Prepared Statements from Asian American Advancing Justice; the 
  Center for Law and Military Policy; the Military Officers 
  Association of America; the National Federation of Filipino 
  American Associations; a Statement from Mario Antonio Martinez, 
  U.S. Army Veteran facing deportation; a Statement from Pablo 
  Dilbert, a Deported U.S. Marine Corps Veteran; a Statement from 
  Salomon Loayzo, a Deported U.S. Navy Veteran, and; a Statement 
  from Beverly W. Cutler, Former Superior Court Judge for the 
  Third Judicial District in Alaska; Submitted by the Honorable 
  Lou Correa.....................................................     4
Letter to U.S. Citizenship and Immigration Services Acting 
  Director Cuccinelli from Members of Congress; Submitted by the 
  Honorable Lou Correa...........................................    26
U.S. Department of Justice Press Release entitled, ``Chinese 
  National Arrested for Allegedly Acting Within the United States 
  as an Illegal Agent of the People's Republic of China''; U.S. 
  Department of Defense Memorandum on the Certification of 
  Honorable Service for Members of the Selected Reserve of the 
  Ready Reserve and Members of the Active Components of the 
  Military of Naval Forces for Purposes of Naturalization, and; 
  U.S. Citizenship and Immigration Services web pages on 
  Naturalization Through Military Service and ``Military Help 
  Line''; Submitted by the Honorable Andy Biggs..................   110
Texas Civil Rights Project Report entitled, ``Land of the Free, 
  No Home to the Brave: A Report on the Social, Economic, and 
  Moral Cost of Deporting Veterans''; Submitted by the Honorable 
  Sylvia Garcia..................................................   129

                                APPENDIX

Ms. Margaret Stock Response to the Testimony of the Honorable 
  Mark Metcalf...................................................   143
Prepared Statement from the American GI Forum of the United 
  States; Submitted by the Honorable Zoe Lofgren.................   150
Letter from LULAC Council #5310: Green Card Veterans; Submitted 
  by the Honorable Zoe Lofgren...................................   151
Statements and Letters from Deported Veterans and their Families, 
  including those from: Alejandra Juarez, Augie Garcia, Carlos 
  Paniagua, Cuauhtemoc Juarez, David Bariu, Edwin Melendez, 
  Erasmo Apodaca M., the American GI Forum in support of Frank De 
  La Cruz, Howard Deann Bailey, Ivan Ocan, Elizabeth Perez, Luis 
  Andres Puentes Romero, Richard Avila, Ronald Mervyn Dale 
  Cruickshank; Submitted by Mr. Hector Barajas-Varela............   154
The Hill article entitled, Filipino war veterans deserve better; 
  Submitted by the Honorable Zoe Lofgren on behalf of Asian 
  Americans Advancing Justice....................................   188
Letter from Boundless Immigration; Submitted by the Honorable Zoe 
  Lofgren........................................................   190


   THE IMPACT OF CURRENT IMMIGRATION POLICIES ON SERVICE MEMBERS AND 
                      VETERANS, AND THEIR FAMILIES

                              ----------                              


                       TUESDAY, OCTOBER 29, 2019

                        House of Representatives

              Subcommittee on Immigration and Citizenship

                       Committee on the Judiciary

                            Washington, DC.

    The subcommittee met, pursuant to call, at 2:32 p.m., in 
Room 2141, Rayburn House Office Building, Hon. Zoe Lofgren 
[chairman of the subcommittee] presiding.
    Present: Representatives Lofgren, Nadler, Jayapal, Correa, 
Garcia, Neguse, Mucarsel-Powell, Escobar, Jackson Lee, Scanlon, 
Buck, Collins, Biggs, and Steube.
    Staff Present: Betsy Lawrence, Counsel; Joshua Breisblatt, 
Counsel; Rachel Calanni, Professional Staff Member; Andrea 
Loving, Minority Counsel; and Andrea Woodard, Minority 
Professional Staff Member.
    Ms. Lofgren. We will now ask the Subcommittee on 
Immigration and Citizenship to come----
    Staff. We need to bring out the witnesses.
    Ms. Lofgren. Oh. We're going to bring out the witnesses 
before I start this. We moved too fast.
    Mr. Buck. We like fast.
    Ms. Lofgren. The subcommittee will come to order and with 
the indulgence of our witnesses before we proceed to the 
hearing, I think many of us would like to say a comment or two 
about the late John Conyers, who was a member of this committee 
for many decades, who gave his life to public service, and who 
loved this committee very greatly.
    He passed away just a few days ago, having served his 
country, both in the Armed Forces and in the Congress, and so 
we do mourn his passing, and it would be not in keeping with 
our traditions to proceed without at least giving our 
condolences to his family and to those who sent him to Congress 
for so many decades to represent them.
    At this point, I would like to recognize Mr. Nadler, the 
chairman of the full committee, for remarks on Mr. Conyers.
    Chairman Nadler. Thank you, Madam Chairperson. Americans 
across the country are mourning the loss of John Conyers today, 
but nowhere is his loss felt more deeply than here in the 
Judiciary Committee, which he served for more than 50 years as 
a member of this committee, including more than 20 years as 
either as chairman or ranking member.
    John Conyers was a true champion for civil rights and 
justice for the oppressed and the disenfranchised. Prior to his 
service in Congress, he was on the forefront of the civil 
rights movement, and was in Selma, Alabama, for the Freedom Day 
voter drive in 1963. He also holds the distinction of being the 
only Member of Congress to be endorsed by Dr. Martin Luther 
King, Jr.
    Once in office, he hired Rosa Parks to work on his staff 
when her civil rights activism caused other employers to shun 
her. Throughout his career, John was a leader of progressive 
causes, even when doing so was a lonely pursuit. He authored 
universal healthcare legislation long before it became a 
mainstream idea, and he first introduced H.R. 40, legislation 
to study reparations for the legacy of slavery and Jim Crow 
back in 1989.
    At the same time, he had a long track record of working 
across the aisle to enact important bipartisan legislation, 
such as the Violence Against Women Act, the Fair Sentencing 
Act, the USA Freedom Act, and the Voting Rights Act.
    As a leader in the Judiciary Committee, Congressman Conyers 
spearheaded and passed such important legislation as the Martin 
Luther King, Jr. Holiday Act, hate crimes legislation, and the 
Innocence Protection Act. But his impact in the House cannot 
just be measured in terms of how many bills he sponsored or 
considered in committee. He was a founding member of the 
Congressional Black Caucus, and he was a mentor to many 
members, including me, who benefited from his wisdom and grace.
    John was my colleague, my friend, and my chairman. I'm 
honored and humbled to serve in his footsteps leading this 
committee, and I'm comforted by the portrait that hangs above 
me knowing that he is watching us and hopefully approving as we 
attempt to carry on his legacy. My thoughts are with his 
family, and all those whose hearts are heavy today because of 
his loss. My hearts are with the country, which has lost the 
benefit of his leadership. May his memory be a blessing.
    Ms. Lofgren. The gentleman yields back. I now recognize the 
ranking member of the full committee, Mr. Collins, for his 
statement.
    Mr. Collins. Thank you, Madam Chair. I echo the chairman's 
statements about the accomplishments and the long list of 
accomplishments that have been listed out. Mr. Conyers was 
amazing in the length and breadth and statements of what he 
made, but I choose to emphasize also the--what he accomplished 
from his time as chair, and also as ranking member when I 
worked with him on many occasions before his leaving the House.
    But the thing that I remember the most is just his 
kindness, his sense of humor, his dress. He's the sharpest 
dresser always in the room, and especially on codels, and 
especially when we got together at one of the highlights of my 
time in Congress was a few years ago working on the police 
working group. We went to Detroit, and he was host for that, 
and it was just a really neat time to let him show his city and 
where he came from, and I was pleased at that. But the last 
memory that I will hold dearest for me was is when you get to 
Washington, you're amazed, and still I am by everything. But I 
can remember one day leaving this committee, and we were going 
to the floor for a vote, and we went down to the trains that 
take us to the Capitol for this vote, and we're coming back to 
the hearing room and it just happened to be me and him, and I 
had only been here about a month or two.
    So I was introducing myself and I introduced and he said, 
now, you're from Georgia, right? And I said, yes, sir. And we 
talked back and forth. I said, just curious, I said, you've 
been here a long time, I said, what brought you--I said, I'm 
going to ask this question a lot, what brought you to Congress? 
And he starts chuckling a little bit and he looks at me and 
says, Well, I really wanted to come be a part of the Judiciary 
Committee to work on the Voting Rights Act of 1964. And I 
stopped for a second and I looked at him and said, you do 
realize that was 2-1/2 years before I was born? And he laughed 
and he said, Yep, I've been here a while. He said, if you stick 
around, you'll see a lot of things. That was the gentleman that 
I got to know and it's--the Nation mourns that and this 
committee mourns that, and it would be, as the chairwoman said, 
it would be remiss if we did not recognize that today.
    And with that, I yield back.
    Ms. Lofgren. The gentleman yields back and all other 
members will be invited to submit whatever comments they might 
wish on Mr. Conyers at this time.
    It's now my pleasure to welcome everyone to this 
afternoon's hearing on the Impact of Current Immigration 
Policies on Servicemembers and Veterans and Their Families. 
Over the last 2-1/2 years, the administration has implemented 
numerous policy changes that have made life more difficult for 
noncitizen members, of the United States Armed Forces veterans 
and their families. In addition, the administration's heavy 
emphasis on immigration enforcement, as well as the elimination 
of prosecutorial discretion when it comes to immigration 
enforcement, has resulted in the removal, or attempted removal, 
of far too many lawful permanent resident veterans who 
honorably served our country, but struggled with the transition 
back into civilian life, some who were disabled by PTSD.
    This hearing will allow the subcommittee to explore how 
these policy changes and the unforgiving nature of our 
immigration laws have impacted Active Duty servicemembers, 
veterans, and their families. At this point I would like to, 
without objection, recognize my colleague, Representative 
Correa as a champion of this very important issue who will 
preside over this hearing, and to whom I yield the remainder of 
my time for his opening statement.
    Mr. Correa [presiding]. Good afternoon and welcome. Without 
objection, first, I'd like to request permission to submit 
these letters as part of the record. These are letters on the 
impact of current immigration policies on servicemembers, 
veterans, and their families.
    [The information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Correa. First of all, let me thank my colleague, 
Representative Lofgren, chairwoman of the Immigration 
Citizenship Subcommittee for her leadership, and I appreciate 
the opportunity to preside over this most important hearing 
today. And as we approach Veterans Day, we have to recognize 
and honor all our veterans, including immigrant veterans who 
have served our country honorably in the Armed Forces from the 
Revolutionary War to the recent conflicts in Afghanistan and 
Iraq. And today, there are over half a million foreign-born 
veterans in the United States.
    As recently as 2012, there were 24,000 immigrants as part 
of our Active Duty force. The Philippines, Mexico, Jamaica, and 
South Korea, account for the greatest number of these foreign-
born veterans, and regardless of where they were born, 
immigrant servicemembers are Americans in every sense of the 
word. More than once, I've shared the story of Marine Corporal 
Jose Garibay, who was born in Mexico. Corporal Garibay was 
killed in action in 2003, after Iraqi forces pretending to 
surrender ambushed him and his fellow Marines. He was one of 
Orange County's first combat casualties in the Iraq War, and 
Corporal Garibay was posthumously given American citizenship. 
He chose to defend his country as a Marine and made the 
ultimate sacrifice, and he was a dreamer.
    When foreign-born servicemembers and veterans are willing 
to defend the United States, a country they love, we have an 
obligation to uphold their promise to provide for these 
patriots American citizenship.
    Sadly, since 1996, thousands of noncitizen veterans who 
took the oath of allegiance and were honorably discharged have 
been deported. No one puts the uniform on and who is honorably 
discharged should be subject to deportation. And as every 
soldier knows, you never leave a soldier behind.
    Sadly, the U.S. Immigration and Custom Enforcement, or ICE, 
does not follow policies for solving cases of potentially 
removable veterans, and does not always identify and track such 
veterans. As a result, ICE does not know how many veterans it 
has deported. And recently, the administration has adopted 
policies that affect the naturalization process for military 
servicemembers and veterans.
    As a result, military naturalizations have decreased by 44 
percent, from 7,300 in fiscal year 2017, to about 4,000 in 
fiscal year 2018. And in August of 2019, U.S. Citizenship and 
Immigration Service announced a change to the definition of the 
term ``residents.'' And, in fact, children born to certain U.S. 
servicemembers stationed abroad will now be required to 
naturalize under a lengthier and more complicated application 
process.
    Together with my colleague, Representative Veronica Escobar 
of Texas, we wrote a letter to the U.S. Citizenship and 
Immigration Service, Acting Director Ken Cuccinelli, asking for 
reconsideration of this policy. And without objection, I'd like 
to submit that letter as part of this record.
    [The information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Correa. In total, these policy changes negatively 
affect military recruitment and effectiveness, and turn our 
back on immigrant servicemembers, veterans, and their families. 
This is unacceptable, and we need to correct the situation. And 
I look forward to hearing the testimony of the witnesses today. 
And it's now my pleasure to recognize the ranking member of the 
subcommittee, the gentle member from Colorado, Mr. Buck, for an 
opening statement.
    Mr. Buck. Thank you, Mr. Chairman. Immigrants have served 
in our Armed Forces throughout our country's history. 
Recognizing their sacrifice, Congress has provided, in law, for 
the expedited naturalization of foreign nationals who serve 
honorably in the U.S. Armed Forces. In periods of hostility, 
which includes September 11, 2001, to present, a noncitizen 
member of the Armed Forces may apply to become a U.S. citizen 
if the individual has served honorably in an Active Duty 
status.
    Naturalization is voluntary, not automatic, and noncitizen 
members of the military who qualify for naturalization must 
apply for it, receive a favorable adjudication, then take the 
oath of allegiance to become a naturalized U.S. citizen.
    As part of this process, the Department of Defense must 
certify honorable service, which they often do after background 
checks have been completed, and the alien has met the time and 
service requirements, in most cases, 180 days. This policy is a 
reasonable requirement to ensure an informed determination that 
the servicemember has served honorably as required by statute.
    Since October 1, 2001, the United States Citizen and 
Immigration Services Agency has naturalized approximately 
130,000 members of the military, many of those members 
naturalizing while deployed abroad. Today, we will discuss the 
difficult issue of noncitizen veterans of the U.S. military who 
have been removed from the United States. It's important to 
note that no one is above the legal consequences, criminal or 
otherwise, of their behavior. The cases of veterans in removal 
proceedings should be handled according to guidance that has 
been in place through several administrations, and with 
sensitivity to those who may have suffered from mental health 
problems due to their service. I am also honored to be an 
original cosponsor with Ranking Member Collins, Chairman 
Nadler, Chairman Lofgren of H.R. 4803, the Citizenship For 
Children of Military Members and Civil Servants Act.
    This bipartisan bill makes a technical change to the 
residency requirements of Section 320 of the Immigration and 
Nationality Act. This will ensure that children of the U.S. 
Armed Forces, members stationed abroad, can automatically 
acquire citizenship where all other requirements are met. It 
will make sure they are not disadvantaged simply because their 
U.S. citizen parent is stationed abroad. We introduced H.R. 
4803 earlier this month. I am proud of our work on this bill, 
since it shows that when a change in the law is necessary, it 
is possible for us to work together to get it done.
    I look forward to hearing from the witnesses today.
    And I yield back the balance of my time.
    Mr. Correa. Thank you, Mr. Buck. I will now recognize the 
chairman of the Judiciary Committee and gentle member from New 
York, Mr. Nadler, for his opening statement.
    Chairman Nadler. Thank you, Mr. Chairman. Immigrants have 
served in the U.S. Armed Forces in every major conflict since 
the Revolutionary War. According to the bipartisan policy 
center in 2016, there are approximately 511,000 foreign-born 
veterans of the Armed Forces residing in the United States. The 
children of immigrants also make up a substantial portion of 
today's veteran population. Every day, these great men and 
women risk their lives in service to our country. We rely on 
them to keep our Nation safe, to provide stability in 
politically fragile regions, and to protect U.S. global 
interests. In return, we must honor their sacrifices, ensure 
that they and their families are supported, and give them every 
opportunity to become U.S. citizens.
    Unfortunately, as a result of the unforgiving nature of our 
immigration laws and numerous policy changes implemented by the 
Trump administration, it appears that the opposite is 
happening.
    Under the Trump administration, the Department of Defense 
and U.S. Citizenship and Immigration Services, USCIS, have 
implemented numerous policy changes that have undermined 
Congress's clear intent to provide an expedited naturalization 
process for military servicemembers and veterans. For example, 
in October 2017, the Pentagon made it more difficult for 
military servicemembers to receive a certification of honorable 
service, a document which is essential to expedite the 
naturalization process. Previously, certifications could be 
issued as soon as individual began Active Duty. Now, however, 
one must first complete at least 180 consecutive days of such 
service, or one year in the selected reserve of the ready 
reserve. In addition, where certifications could previously be 
issued by any supervising officer, they must now be certified 
by the secretary of the applicable military branch, or a 
commissioned officer serving in a specific pay grade.
    These changes are unnecessary and cruel. They serve no 
purpose but to make it harder for individuals serving our 
country to become citizens, and they've had a measurable 
impact. The total number of military authorizations declined 44 
percent from 7,360 in fiscal year 2017 to just 4,135 in fiscal 
year 2018. In addition, because USCIS has dramatically cut the 
number of its international offices, naturalization services 
for those who are stationed overseas have become much more 
limited.
    USCIS used to provide such services at 23 international 
offices in 20 countries. The change that took effect last 
month, this was cut from 23 international offices to just four 
offices.
    With USCIS personnel on site to conduct naturalization 
interviews, only 1 week per calendar quarter. Why would we make 
it more difficult for the men and women who are risking their 
lives in service of this country to become permanent members of 
our society? This is both short-sighted and cold-hearted. 
During this hearing, we will also discuss the plight of U.S. 
veterans who struggle with the transition back to civilian 
life, and who are eventually deported to the country they so 
nobly served.
    Many of these veterans have been removed from the United 
States as a result of convictions or other transgressions tied 
to Post-Traumatic Stress Disorder, PTSD, brain injury, and 
other physical traumas suffered while on Active Duty that make 
the transition back to civilian life extremely difficult. In 
other words, they served this country; they had a medical 
condition as a result of it, which impaired their judgment; 
they committed some crime as a result of that medical 
condition; and, therefore, they're deported.
    We can all agree that individuals who are rightfully 
convicted of a crime should serve any reasonable sentence 
imposed, but once that sentence has been served, we should not 
simply turn our backs on those who sacrificed so much in 
service to our country, especially if that may have been 
service-related.
    There must be a better way to address these cases. Our 
veterans deserve better, and we owe it to them to find a way to 
bring compassion and discretion back into our immigration laws.
    I want to end on a positive note. Last week, I introduced 
the Citizenship for Children of Military Members and Civil 
Servants Act, along with Ranking Member Collins, who has served 
honorably in the Armed Forces himself, as well as several of my 
esteemed colleagues, including Subcommittee Chair Lofgren and 
Ranking Member Buck. This bill will fix the problem that 
resulted from a policy change announced in August that takes 
effect today, which makes it more difficult for children of 
U.S. citizens serving our country abroad to be recognized as 
U.S. citizens.
    Our bill would reverse this misguided policy, and would 
make it easier for such children to be granted automatic 
citizenship. I'm glad we were able to work together across the 
aisle to introduce this important legislation. I look forward 
to advancing our efforts in the coming weeks.
    I want to thank Chair Lofgren and Representative Correa for 
holding this important hearing. I thank all of today's 
witnesses for testifying. I look forward to their testimony.
    And I yield back the balance of my time.
    Mr. Correa. Thank you, Chairman Nadler. I would now like to 
recognize the ranking member of the Judiciary Committee, the 
gentle member from Georgia, Mr. Collins, for his opening 
statement.
    Mr. Collins. Thank you, Mr. Chairman. I am pleased to have 
the opportunity to discuss military issues today because of the 
lieutenant colonel in the U.S. Air Force reserve command. I 
understand the issues surrounding military service. It is 
Congress's place to determine if changes should be made to U.S. 
law governing the treatment of men and women who have served 
us.
    Last week, as the chairman just mentioned, he and I, along 
with Chairperson Lofgren and Ranking Member Buck, and other 
colleagues from across the political spectrum, introduced H.R. 
4803, the Citizenship for Children of Military Members and 
Civil Servants Act. The U.S. Citizenship and Immigration 
Services recently aligned a technical interpretation of the law 
with the Department of State's correct interpretation. This 
exposed a loophole. Some children of the U.S. Armed Forces 
members would not automatically acquire citizenship merely 
because their parents' deployment abroad prevents them from 
meeting the residency requirement imposed in the statute. H.R. 
4803 would fix this unfortunate loophole.
    It's important to remember that immigrants also wear the 
uniform, and have since the founding of our Nation. In fact, 
historically, the average number of foreign national enlistees 
has been around 5,000 a year. That number jumped to 7,000 in 
2019. Many of these patriots will go on to be naturalized for 
their service, and from fiscal year 2001 to fiscal year 2018, 
U.S. Citizenship and Immigration Services naturalized 129,587 
members of the military, including more than 11,000, who, at 
the time, were deployed abroad protecting our country.
    Our immigration laws recognize the sacrifice made by the 
immigrant members of our military, and lay out provisions for 
the expedited naturalization of foreign nationals. Any foreign 
national who serves in the military during hostilities, 
including the time period after September 11 attacks is 
eligible to apply to naturalize upon honorable service.
    The Department of Defense issued a policy memo in 2017 to 
require servicemembers to have served at least 180 days for the 
Department to certify honorable service, which is required to 
apply--which is required to apply to naturalize. This aligns 
with long-standing Department of Defense policy that the 
Department does not issue a characterization of service for any 
one citizen, or noncitizen alike, who has not served for 180 
days. Not all foreign nationals who serve in the military will 
choose to naturalize, and those who do not remain subject to 
our immigration laws. Although, we should not shield 
servicemembers or veterans from the necessary and lawful 
consequences of their actions, agencies handling rule cases 
should be particularly sensitive to a veteran's honorable 
service.
    To that end, I expect Immigration and Customs Enforcement 
to consistently apply policies that impose special handling 
procedures on removal cases for veterans and take into account 
the nature of that veteran's services in the Armed Forces.
    We must be vigilant about any enlistee, citizen or foreign 
national alike, to ensure that they do not intend harm. To that 
end, the Department of Defense, under the Obama administration, 
became aware of risk presented by some individuals recruited 
through the Military Accessions Vital to the National Interests 
program, and halted enlistment, but Military Accessions Vital 
to a Natural Interest program permitted foreign nationals with 
language or health skills vital to the national interest to 
enlist in the Armed Services, even though they were only here 
on temporary visas.
    While well-intentioned, the security screening processes 
were simply not up to the challenge of vetting a population who 
had spent very little time in the U.S., in addition to lacking 
verifiable records, investigators discovered security issues 
with many applicants, including questionable allegiance to the 
U.S., a preference for a foreign country. Susceptibility of 
foreign influence and unexplained affluence.
    There's an even one publicly known case in which a Chinese 
spy enlisted through the Military Accessions Vital to the 
National Interests program. I know the Department of Defense is 
improving its security screening procedures, but I remain 
concerned about vulnerabilities that could be presented by 
enlisting individuals here on temporary status, and I have 
supported the Obama administration's decision to halt the 
Military Accessions Vital to National Interest program.
    I believe it would be extremely helpful to have the 
Department of Defense representative testify here today in 
order to hear the Department's reasoning behind the halting of 
Military Accessions Vital to the National Interests program 
enlistments, this time in service requirement and the other 
policies we will discuss today. I look forward to the 
witnesses' testimony and thank them very much for being here.
    And with that, Mr. Chair, I'll yield back my time.
    Mr. Correa. Thank you very much, Ranking Member Collins. 
It's now my pleasure to introduce today's witnesses. Mr. Hector 
Barajas-Varela, good to see you again, sir, is a U.S. army 
veteran and the Director and founder of the Deported Veteran 
Support House in Tijuana, Baja, California. Mr. Barajas was 
born in Mexico, grew up in California, and enlisted in the Army 
in 1995. He served for 6 years, during which time he received 
multiple awards, such as the Army Commendation Medal, 
Humanitarian Service Medal, and despite his service to his 
country, he has been deported twice since honorable discharge 
from the Army in 2001. Last year, Mr. Barajas-Varela became a 
U.S. citizen and remains committed to his organization in 
providing support to other deported veterans. We thank him for 
his service and for being here today to share your story, sir.
    Second witness, Jennie Pasquarella is the Director of 
Immigrant Rights of the ACLU of California, and serves as a 
senior staff attorney at the ACLU of Southern California, where 
she has worked since 2008. She specializes in immigrant rights 
and litigation in policy advocacy related to immigration 
enforcement and policy. She received her B.A. from Bernard 
College, and her J.D. from Georgetown University Law Center.
    Margaret Stock is a retired lieutenant colonel in the 
military police, U.S. Army Reserve, and principal immigration 
attorney with the Cascadia Cross Border Law Group in Anchorage, 
Alaska. In 2013, she received the distinguished MacArthur 
Foundation Fellowship for her outstanding work in immigration 
and national security. She has testified before both Chambers 
of Congress, including this very subcommittee, to discuss the 
issues ranging from DREAM Act to the effects of immigration law 
on the military. She holds three degrees from Harvard, 
including her J.D., M.P.A., and holds a master's in strategic 
studies from the U.S. Army War College. We welcome her as well. 
Welcome back, ma'am, to this committee.
    The Honorable Mark Metcalf is a former immigration judge on 
immigration court in Miami, Florida, and a former Federal and 
State prosecutor in his home State of Kentucky. Mr. Metcalf 
also held various positions with the U.S. Department of Justice 
and the Department of Defense from 2002 to 2008. He's worked as 
a private practitioner. He is a Lieutenant Colonel in the Army 
National Guard, and served as command judge advocate for the 
149th Maneuver Enhancement Brigade in Kentucky.
    Like Ms. Stock, Mr. Metcalf has previously testified before 
Congress, and is an expert on immigration law. Including his 
testimony before this subcommittee and the 111th Congress, he 
received his B.A. and J.D. from the university of Kentucky. We 
welcome him back to the subcommittee and look forward to your 
testimony, sir.
    Mr. Metcalf. It's a pleasure, sir. Thank you.
    Mr. Correa. We welcome all of our distinguished witnesses 
and thank you for your participation. Now, if you could please 
rise, I'm going to swear you in. Please raise your hand. Do you 
swear or affirm under penalty of perjury that the testimony 
you're about to give is true and correct to the best of your 
knowledge, information, and belief, so help you God? Thank you.
    Let the record show that the witnesses answered in the 
affirmative, and thank you and please be seated.
    Please note that each of your written statements will be 
entered into the record and I will ask each one of you to 
summarize your testimony in 5 minutes. And to help you stay 
within that time limit, please look at those clocks in front of 
you. And we'll begin with Mr. Barajas, welcome.

  TESTIMONIES OF HECTOR BARAJAS-VARELA, DIRECTOR AND FOUNDER, 
 DEPORTED VETERANS SUPPORT HOUSE, JENNIE PASQUARELLA, DIRECTOR 
  OF IMMIGRANTS' RIGHTS, ACLU OF CALIFORNIA AND SENIOR STAFF 
   ATTORNEY, ACLU OF SOUTHERN CALIFORNIA; MARGARET D. STOCK, 
IMMIGRATION ATTORNEY AND LIEUTENANT COLONEL (RETIRED), MILITARY 
POLICE CORPS, U.S. ARMY RESERVE; AND HON. MARK METCALF, FORMER 
 IMMIGRATION JUDGE AND LIEUTENANT COLONEL, ARMY NATIONAL GUARD

               TESTIMONY OF HECTOR BARAJAS-VARELA

    Mr. Barajas-Varela. Hello? Okay. Chairman Lofgren, 
Congressman Correa, Ranking Member Buck, and other 
distinguished members of the committee, thank you for the 
opportunity to appear before the subcommittee to testify about 
these important issues. My name is Hector Barajas. I am a U.S. 
veteran who was deported to Mexico in 2004. I'm honored to join 
you today to speak on behalf of my fellow deported veterans 
about my personal experience. I would like to acknowledge that 
some formerly deported veterans and supporters have joined us 
in the room today, including Miguel Perez, Jorge Salcerro, AGC 
(ph), and the Green Card veterans that are supporters.
    I am not proud of what led to my deportation, but I am 
proud of my military service and the positive accomplishments 
in my life, including starting the Deported Veterans Support 
House in Tijuana.
    I grew up in Compton, California. My family and I moved to 
the U.S. when I was 7 years old. As a child, I remember 
pledging allegiance to our American flag every school morning. 
I enlisted in the U.S. Army in 1995 when I was 17 years old. I 
was a lawful permanent resident at the time. I wanted to serve 
my adopted country, and I saw service as a way to leave the 
environment in Compton and possibly to afford to go to college.
    I arrived in Ft. Bragg and soon volunteered for airborne 
school, serving in the 82nd airborne from 1996 to 1999. I re-
enlisted for another 3 years and left the service with an 
honorable discharge in October of 2001. After I left the 
service, I had some troubles adjusting and made mistakes. I 
eventually found myself in prison for an incident where a 
firearm was discharged at a vehicle. I was sentenced to 3-1/2 
years in the State of California, and served my prison 
sentence. I was deported in 2004 due to my criminal record, and 
because I was not a U.S. citizen.
    I came back to the U.S. illegally that same year, started a 
family, and worked as a roofer. Eventually, I was deported in 
2010 for a traffic incident that I had, and they reinstated my 
deportation. I made the toughest decision in my life in 2010. I 
decided to stay in Tijuana and fight to return to the U.S. 
legally.
    I wanted to reunite with my daughter and live in America 
without the fear of deportation. In 2013, through a combination 
of hard work and determination, I opened up the Deported 
Veterans Support House. I wanted a place that could help 
deported veterans in situations like mine navigate the hardship 
of deportation, the separation from our families, and the 
country we loved and served.
    The Support House is a lifeline for many deported veterans 
living in Tijuana and around the world. We provide housing, 
help them find jobs, file for their V.A. benefits, and connect 
with pro bono attorneys. We also help with burial details so 
that our veterans who died can return to their families in 
America.
    Under today's laws, most deported veterans will only come 
home to America with an American flag draped around their 
casket, like Enrique Salas and Jose Lopez. There's no honor in 
bringing deported veterans home to be recognized or thanked for 
their service only when they die.
    I proudly became an American citizen on April 13 of 2018. I 
qualified for citizenship due to my military service and a 
pardon from Governor Jerry Brown of California. I am blessed to 
be back home in America, and to be a father to my daughter.
    Once again, I want to emphasize that I am a firm believer 
in people being held accountable. Being a veteran does not mean 
that you get a free pass and never have to pay the consequences 
for your actions. At the same time, it does not make sense to 
me to deport our veterans after they have completed their 
sentence and paid for their actions. For veterans, deportation 
is a double punishment. As an example, my friend, Roberto 
Salazar, is a former U.S. Marine who was deported. Today he 
runs a men's drug rehab center in Tijuana. Roberto's daughter 
and his son also joined the U.S. Marine Corps. Roberto's 
daughter was a lively and inspiring young woman, but she passed 
away in an accident in 2017. We held a funeral service and 
burial in Tijuana, because Roberto was unable to go to San 
Diego to bury his daughter.
    I have a few recommendations on how to ensure we protect 
our veterans from deportation and encourage all servicemembers 
and veterans to naturalize. I am blessed to be a U.S. citizen 
today, but I believe U.S. citizenship only acknowledges what 
many deported veterans already believe in their hearts. We 
believe ourselves to be Americans. I know current law requires 
us to deport our veterans. I do not think it makes it morally 
right. We must find a solution to protect our veterans. Thank 
you again for the opportunity to testify, and may God bless you 
and may God bless America.
    [The statement of Mr. Barajas-Varela follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Mr. Correa. Thank you, Mr. Barajas. I'd like to call on Ms. 
Pasquarella for her statement.

                TESTIMONY OF JENNIE PASQUARELLA

    Ms. Pasquarella. Congressman Correa, Chairwoman Lofgren, 
Ranking Member Buck, and distinguished members of the 
subcommittee. For more than 200 years, Congress has promised 
immigrant recruits expedited citizenship in exchange for their 
military service. But since 1996, the United States has 
betrayed that promise. We've, instead, deported thousands of 
our veterans, and every day we deport more.
    Just last week, ICE deported Jose Segovia Benitez, a two-
time Iraq and Afghanistan war veteran, combat veteran, who 
suffered a traumatic brain injury, and who, like many, 
struggled with severe PTSD and substance abuse. Jose came to 
the U.S. as a 3-year-old child. He knows no other home than the 
United States. Now he fears for his life in El Salvador.
    These deportations are unconscionable and immoral. They are 
the result of three forces working together: first, the 
punishing and unforgiving 1996 laws that created lifetime bars 
to naturalization and mandatory deportation; second, the 
failure of the U.S. Government to naturalize noncitizen 
servicemembers while they are serving; and third, 
hyperaggressive immigration enforcement, particularly over the 
past decade.
    Deported veterans are nearly all former lawful permanent 
residents. Of those we interviewed for our 2016 policy report, 
half of them served during periods of war, and most came to the 
U.S. under the age of 10, meaning the United States is the only 
country they know as home. Changes made to our immigration laws 
in 1996 were so excessively punitive that certain criminal 
convictions, even convictions, such as writing a bad check or 
possession for the sale of marijuana, even convictions for 
which a person may serve no time in jail at all, required 
deportation and bar naturalization for life.
    The 1996 laws dramatically expanded the definition of the 
category of deportable offenses known as aggravated felonies. 
Today, that term encompasses a whole host of nonviolent 
misdemeanors that are neither aggravated, nor are they 
felonies. The law made deportation mandatory for any LPO with 
an aggravated felony by eliminating all forms of judicial 
discretion, meaning a single criminal conviction, one mistake, 
can equal a lifetime of banishment with no exceptions.
    It means that when Mario Martinez, who wrote a statement 
for the record of this hearing, when he goes before an 
immigration judge in March, the judge will not be permitted to 
consider whether deportation for his domestic violence 
conviction that occurred more than 10 years ago, is a fair 
outcome. The judge will not be able to consider whether it's a 
fair outcome for a man who served honorably in the U.S. Army, 
earning the rank of Sergeant, for 6 years he served, who has 
lived in the United States for 52 years since he was 4 years 
old, who has a successful engineering career, two grown sons, a 
granddaughter, and an extended family who are all U.S. 
citizens.
    The judge will not be able to consider that deportation 
means forcing him to live the remainder of his life estranged 
from everything he knows and loves, because the law says one 
mistake and you're out.
    Citizen and noncitizen veterans equally struggle with 
reentry into civilian life following discharge. Substance 
abuse, mental health issues, and anger can lead to contact with 
the criminal justice system. And as a society, we look to 
rehabilitative solutions to address the scars of war, to 
address the trauma that inflicts our veterans, but our 
immigration policy looks the other way.
    Jorge Salcedo, who is here today and sitting beside--behind 
me with his daughter, was deported for the crime of spitting on 
a police officer, which the law at the time defined as an 
aggravated felony. He paid for that crime. He served 1 year in 
Connecticut prison. But at the conclusion of his sentence, ICE 
was at the prison door. ICE arrested him and detained him for 
3\1/2\ years, 3\1/2\ years without the right to be released on 
bail while he fought his deportation case, and then it deported 
him. It didn't matter that he served 8 honorable years in the 
Army; it didn't matter that deportation denied his two young 
daughters their father. One mistake. Jorge sits here today 
because a change in law allowed him to get his green card back. 
He's one of the lucky few. Most deported veterans have no such 
option for return.
    The U.S. would not be deporting its veterans had the 
government kept its promise to them in the first place, and 
made them citizens while they were in the military. But over 
the years, numerous obstacles have stood in the way of 
servicemembers naturalizing. None of those obstacles, none are 
greater than the obstacle servicemembers are facing today, due 
to Department of Defense and U.S. citizenship and immigration 
service policies.
    The repatriated and naturalized veterans in this Chamber 
today, Hector, Jorge, Miguel Perez, who sits behind me, the AGC 
who sits behind me, embody the hope of deported veterans around 
the world, that one day too they will get the chance to come 
home. Their hopes lay at the feet of Congress. They did not 
turn their backs on our country in its time of need. We must 
not turn our backs on them. Thank you.
    [The statement of Ms. Pasquarella follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Mr. Correa. Thank you very much.
    Ms. Stock, welcome.

                 TESTIMONY OF MARGARET D. STOCK

    Ms. Stock. Thank you. Congressman Correa, Chairwoman 
Lofgren----
    Mr. Correa. Can you hit your microphone?
    Ms. Stock. Sorry about that.
    Mr. Correa. Thank you.
    Ms. Stock. Congressman Correa, Chairwoman Lofgren, Ranking 
Member Buck, and distinguished members of the subcommittee. My 
name is Margaret Stock, and I'm honored to testify today. The 
last 3 years have witnessed the administration using internal 
memos to undermine long-standing laws, in an effort to stop 
immigrants from joining the military, stalling their 
naturalization when they do join, and preventing them from 
continuing to serve. The new policies do not make our country 
safer. They harm military recruiting, they hurt military 
readiness, and they prevent the United States Armed Forces from 
utilizing talented immigrants. The new policies hide behind 
false national security rationales to conceal xenophobic 
motives. They also represent broken promises made to those who 
would put their lives on the line for the United States.
    The previous efforts of Congress to help noncitizen 
military members become citizens, and the improvements to the 
process for expediting military naturalization cases, have been 
practically eradicated. In 2018, the media reported that there 
had been a 65 percent drop in the numbers of servicemembers 
applying for naturalization after DOD issued a new policy memo 
preventing them from applying. A follow-on story explained that 
immigrants serving in the military were more likely to be 
denied citizenship than civilians.
    Military members cannot file for citizenship unless they 
receive a certified Form N-426, stating that they are serving 
honorably. Three years ago, getting the formed signed merely 
required a trip to the nearest military personnel office and 
spending a few minutes with any official who could verify one's 
service.
    Recently, however, the Department of Defense has changed 
the rules whereby this form can be certified. DOD now requires 
an officer in the grade of O-6 to certify the form. Enlisted 
soldiers report they have grave difficulty finding an officer 
of this grade who is willing to sign their forms.
    Under the 2008 Military Personnel Citizenship Processing 
Act, USCIS was required to process military naturalization 
applications within 6 months. However, the law contained a 
sunset date. When the law was in effect, USCIS processed 
military naturalization applications very quickly. Today, 
however, USCIS takes the position that there is no deadline for 
processing these cases, and they are now often taking years to 
process.
    In mid-2009, USCIS had started a highly successful program 
whereby noncitizen military recruits filed for naturalization 
when they reported to training, and in accordance with 
previous, long-standing wartime practice, these applications 
were processed so that the soldiers graduated from training, 
and became U.S. citizens at the same time. The current 
administration terminated this program in early 2018.
    Last Thursday, I was at the USCIS office at 26 Federal 
Plaza in New York City, only a few short blocks from the World 
Trade Center in one direction, and in the other, Chatham Square 
with its eye-catching monument to Chinese Americans who have 
fought in the U.S. military. While I was waiting, a TV monitor 
on the wall played a continuous loop of a USCIS film promising 
expedited citizenship to immigrants who enlist. The promises 
made in that film are false. There is no more expedited 
military naturalization.
    Today, it takes much longer for a military member to 
naturalize than his or her civilian counterpart, and a military 
member's application is much more likely to be denied.
    Military members have had to resort increasingly to the 
courts just to get the agencies to follow the law. Last week, 
Alina Kaliuzhna, an Active Duty soldier with no criminal 
record, had to sue DHS because the agency refused to make a 
decision on her naturalization. The law mandates that decisions 
must be made within 120 days of an interview. Alina was 
interviewed more than 3 years ago. USCIS officials told her 
that they had decided not to naturalize her until she was 
discharged, citing new DOD policies. She was discharged 
honorably last month without her citizenship.
    As I said earlier, it's now much easier for a civilian 
green card holder to naturalize than for similarly situated 
green card holders to naturalize through their military 
service. As a result, immigration lawyers are now advising 
green card holders not to join the military because it will 
make their naturalization process more difficult.
    DOD has also made it much more difficult for noncitizens to 
join the military in the first place. While immigrants make up 
about 13.5 percent of the U.S. population, they are now less 
than 4 percent of the military. Military recruiters report to 
me that they are meeting recruiting quotas by enlisting less 
qualified, native born Americans. In some cases, the Armed 
Forces just simply can't find enough qualified candidates among 
the native-born population, so the billets go unfilled.
    USCIS has also recently changed certain policies, or has 
plans to change certain policies in ways that harm the family 
members of military personnel and veterans. Policy changes are 
being made without transparency or accountability, and without 
asking key stakeholders first.
    I would be remiss if I did not mention the broken promises 
made to certain foreign nationals who worked with the U.S. 
Government in Iraq or Afghanistan. Many of these workers have 
tried to get the special immigrant visas promised to them by 
Congress, but they remain in danger while they await background 
checks that drag on for years.
    When the United States Government breaks the promises that 
it made to these individuals who put their lives on the line 
for the United States, and previously passed rigorous 
background checks, American foreign policy and the lives of 
American military members are put at risk.
    Our national security depends on keeping the promises that 
America makes to the immigrants who come here and keeping the 
promises we make when someone stands before an American flag, 
raises her right hand, and takes an oath of allegiance to the 
United States. Our security depends on keeping the promise that 
America is a Nation of immigrants.
    Given that DOD and DHS together show no interest in 
reversing their misguided policy changes, Congress must act.
    In my written testimony, I make 10 suggestions for things 
that Congress can do to force the bureaucrats to keep the 
promises that the U.S. Government has made to America's 
fighting men and women. I thank you for the opportunity to 
testify, and I'm ready to take your questions.
    Mr. Correa. Thank you very much, Ms. Stock, for your 
comments.
    [The statement of Ms. Stock follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Mr. Metcalf, welcome.

               TESTIMONY OF HON. MARK H. METCALF

    Mr. Metcalf. Mr. Correa, thank you. It's an honor to be 
here. Members of the committee, it's an honor to be here. I 
thank all of you, and I thank the panelists for their 
statements.
    I'm a Lieutenant Colonel, a soldier in my 28th year of 
service, and a combat veteran of Iraq. I served a victory-based 
complex as garrison Command Judge Advocate. My unit, the 149th 
Maneuvering Enhancement Brigade, better known as the MEB, 
closed American operations in Iraq and did the handover of all 
military installations to the Government of Iraq. With us were 
soldiers born in Jamaica, Cameroon, and Ukraine. In at least 
one case, a naturalized citizen served as a combat arms company 
commander. All had earned their citizenship. Thorough 
background checks were the rule, and this brings me to the 
points I believe critical to good policy.
    First of all, we may have differences of opinions today, 
but all of us are Americans. The policies conceived to advance 
the experience of immigrants is wide, large, and it is 
generous. I favor a 180-day Active Duty service requirement for 
noncitizens. This allows basic, yet thorough background checks 
to be completed that can better identify individuals whose 
histories require further investigation before they continue to 
more rigorous and sensitive training. This requirement is not 
onerous in light of the great responsibilities and 
opportunities service in the American military offers. Time in 
service requirement permits suitability assessments as 
financial, criminal, and loyalty issues are raised. I agree 
with policies that make this service possible that military 
service by the foreign-born, and the consequent American 
citizenship received are conferred upon those for whom no 
credible doubts about their suitability exists.
    I'll turn now, if I may, please, Mr. Chairman, to the MAVNI 
program. It was created to enhance force readiness. Medical and 
language skills were augmented through its application, and 
through it, some 10,400 foreign nationals were enlisted. Still, 
MAVNI was halted by the Obama administration in the fall of 
2016. Generally, U.S.-born recruits have verifiable public and 
private records; recruits from outside the U.S. do not, making 
the need to scrutinize their histories all the more important, 
so that no worthy candidate is denied membership in our Armed 
Services and moves on to citizenship.
    I favor approaches to scrutiny already put in place by DOD. 
Recent Army experiences with the MAVNI program justifies this 
rigor and this flexibility. And I want to point out in my more 
illustrated statement to you, the incidents involving 
fraudulent applications. In one case, a Chinese national posing 
as a MAVNI recruit, only to be found as a Chinese espionage 
asset.
    I want to move on to the removal of veterans. First of all, 
if I had been an immigration judge sitting on Mr. Barajas' 
case, I would have canceled his removal from the United States. 
As a judge in Miami, I awarded 75 -- granted 75 to 80 percent 
of all cancellation applications. His was a perfect case, in my 
opinion, for the grant of cancellation. And, by the way, my 
grant of 75 to 80 percent cancellations was not unusual.
    The numbers from the immigration courts, if you start 
parsing them, Mr. Chairman, will show our immigration judges 
are very generous with the grant of cancellation, both the LPRs 
as well as NPRs. And that's something that we can talk about at 
further hearings, but I want to point out that Mr. Barajas is a 
perfect example of what cancellation was intended to relieve.
    I also want to point out that the cancellation process 
takes into consideration the kind of deep dive into the facts 
that the elements now being used by ICE should have been using 
all along. I note veteran's overall criminal history, his 
rehabilitation, or her rehabilitation, family and financial 
ties to the U.S., employment history, health and community 
service, in addition to the duty status, whether active or 
reserve, war zone duty, years in service, and decorations 
awarded.
    All of these are proper considerations. To remove one 
veteran who should not be removed is one too many. To consider 
each case on a case-by-case basis, looking at all the facts 
applicable, is the right approach and will always be the right 
approach. I thank you for your time today, Mr. Chairman. I'm 
happy to answer any questions you and members of the panel will 
have.
    [The statement of Mr. Metcalf follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Mr. Correa. Thank you, Mr. Metcalf, for your testimony.
    And now I'd like to proceed under the 5-minute rule for 
questions, and I'll begin by recognizing myself.
    First of all, Mr. Metcalf, you're absolutely right; this is 
not a Democrat or Republican issue. This is an issue about 
justice for all our veterans who have served their country, 
have put, essentially, their life on the line for our country.
    And if I may respectfully ask the deported veterans, could 
you just please raise your hand, please, that are here today? I 
just want to thank you very much for your service to our 
country.
    And my question is the basic one, Senor Barajas, which is: 
Why, when these soldiers are in the service, why do you not 
become citizens? Are those resources not given to you? Is that 
not an issue? Or were you promised automatic citizenship when 
you enlisted?
    Mr. Barajas-Varela. Thank you, Congressman, for that 
important question.
    There's two things that happen. I think the government 
needs to be held accountable when they promise citizenship, and 
there needs to be some kind of program in place----
    Mr. Correa. When you say the government promise 
citizenship, what does that mean?
    Mr. Barajas-Varela. The recruiters.
    Mr. Correa. The recruiters promise----
    Mr. Barajas-Varela. They promise you citizenship. And, 
basically, one of the things that doesn't happen is nobody sits 
down with you and actually makes sure that you know what kind 
of forms needs to be filled out.
    And, also, it's an individual responsibility, but 
definitely the U.S. Government needs to make sure that there is 
some kind of program in place, that they set aside either time 
or have somebody that can show you what path needs to be done.
    Mr. Correa. Thank you.
    Ms. Stock, you mentioned the program they terminated, that 
when you graduate, you know, from training, in terms of putting 
you on a fast track to become a citizen, you said that problem 
has been canceled or suspended?
    Ms. Stock. The problem has been canceled. It's a problem 
that existed during World War I, World War II, the Korean War, 
the Vietnam War. It makes sense legally for the United States 
not to deploy people overseas when those people are not 
American citizens and they're fighting in our Armed Forces.
    The background checks, by the way, that are done on 
military members are done before they enter the service, or 
they----
    Mr. Correa. Right.
    Ms. Stock [continuing]. Should be done before they enter 
the service.
    Mr. Correa. So let me ask you, is there a difference right 
now, quantifiable difference, if you're a Marine, Air Force, 
Army, in terms of level of citizenships that may--folks that 
may become citizens after they are discharged?
    Ms. Stock. Well, all of the services had basic training 
naturalization until January 2018, when it was canceled. So now 
we have chaos. And we have service----
    Mr. Correa. Can you be more specific, when you say 
``chaos''?
    Ms. Stock. Yes. Every day, I get a call from a green-card 
holder in the military who says, ``Nobody will help me file for 
citizenship. I don't know how to file. I can't get anybody to 
sign my N-426. They're telling me I'm not eligible for 
citizenship. Nobody's willing to assist me.''
    Mr. Correa. So when you mention it's harder for a green-
card holder in the military than a green-card holder outside 
the military to become a citizen, how is that?
    Ms. Stock. Well, civilians don't need to go through 
convoluted, multiyear background checks by the Department of 
Defense before they become citizens. They don't need to get an 
N-426 certified. They don't need to find an officer in the rank 
of 06----
    Mr. Correa. And I asked you that because--I bet in my 
district--I bet I have the most Latino district in the country. 
These kids I know from my high schools that are residents don't 
ask, how hard is it going to be for me to become a citizen? 
They just enlist.
    Ms. Stock. That's true.
    Mr. Correa. Marine recruiters are in their high school, and 
these kids with honors say, ``I'm going to sign up,'' and I 
don't think the thought of becoming a citizen is there. They're 
there to serve their country.
    And this concerns me because we need to move ahead and 
revert back to that program that was just canceled to make sure 
that these soldiers that are serving with honor have the right 
to become a citizen and that right is a meaningful one.
    Ms. Stock. The program was highly successful----
    Mr. Correa. So where do we go here? Do we present some 
legislation, something that maybe my colleagues can also 
support us, to move in that direction?
    Ms. Stock. Well, the law allows programs like this to 
exist, and they were common, as I said. World War I, World War 
II, the Vietnam War, the Korean War, this was the standard 
practice of the United States Government.
    It was only reversed by the Department of Defense through 
internal memos that undermined the express intent of Congress 
in a statute passed by Congress more than 100 years ago. We 
have here lawlessness by the Department of Defense. They're 
simply undermining a statute with internal executive memos.
    Mr. Correa. Judicial discretion, did you mention that?
    Or was that you, Ms. Pasquarella? Did you mention that? Did 
the 1996 act take away some judicial discretion? I know Mr. 
Metcalf had a different perspective on that. Tell me.
    Ms. Pasquarella. Yes. And that is one of the most troubling 
aspects of the 1996 changes that were made to the immigration 
law, that it removed all forms of judicial discretion for any 
person who has an aggravated felony and, again, expanded the 
definition of aggravated felony. So you have more people who 
are subject to deportation, even for misdemeanors, for things 
we don't classify as actual--as aggravated----
    Mr. Correa. I'm out of time, but I just want to say, in 
Orange County, we were the first--one of the first pioneers on 
creating veterans courts. I know these issues are very complex, 
so I look forward to working with you on this issue.
    And now I'd like to recognize Mr. Biggs for 5 minutes of 
questions.
    Mr. Biggs. Thanks, Mr. Chairman.
    I think we all understand that many of our veterans have 
struggled with reintegration due to TBI or PTSD issues. And 
that's why I've introduced a bill and a piece of legislation to 
advocate for--I advocate today for my colleagues across the 
aisle to join me to make access to HBOT therapy more 
available--that is--and more easily. It is coldhearted to 
withhold support for this important therapy for our veterans.
    So when I see Mr. Barajas-Varela indicate that he was 
struggling to reintegrate, I don't think that's unusual for 
many of our servicemen and -women who come back. HBOT therapy 
is going to be helpful for that.
    But you also said that there's no free pass and that 
deportation is a double punishment. Let me explain why that's 
not so. There's no free pass because you did serve the time for 
shooting at a vehicle. I mean, that was the charge, you were 
convicted, you served your time. It became a specific as well 
as a general deterrent.
    You were later deported because of that because you were 
not a citizen. There's nobody else that would get an exception 
to that who is here because of any other rationale. They would 
still be deportable, as you were. And you left, were deported, 
and then you reentered illegally and were deported again. And 
I'm happy for you that you received a pardon and now you've 
received your citizenship.
    But to say it's a double punishment is illogical. The first 
punishment for violating the crime--or committing the crime is 
the actual criminal sentence itself. The deportation is 
applicable to any person who's in the country that is not a 
citizen who is engaged in criminal conduct. That is not a 
second penalty. That is just--that's the penalty that comes for 
failing to obtain citizenship.
    And I read your statement and listened to you testify. You 
might have had a misunderstanding of what you needed to do to 
obtain citizenship. That's fair. That's a fair comment.
    But I also want to point out some data that I think is 
absolutely mind-boggling that it--this wasn't brought out. Ms. 
Pasquarella pointed out a person named Jose Segovia Benitez. 
And yet this individual--who was deported after being a combat 
veteran. This person was convicted of, among other things, 
corporal injury to a spouse, for which he received an 8-year 
sentence, assault with a deadly weapon, and false imprisonment.
    Well, you know what? He didn't naturalize when he was in 
the military; thus, he is subject to deportability. That's the 
way the law works. That type of criminal conduct do constitute 
aggravated felonies. They aren't the misdemeanors that you said 
are a result of this expansion of the term ``aggravated 
felonies.''
    We've also heard about the higher denial rate for U.S. 
military applications for citizenship. That rate is 17 percent. 
Overall it's 11 percent, but for military it's 17 percent.
    But you need to understand you're talking apples and 
oranges here. Because from April 1 to June 30, 2019, there were 
only 2,353 pending military naturalization applications, 
compared to 683,000 civilian applications. USCIS had received 
875 military applications, compared to 209,000 civilian 
applications.
    So there are some interesting things when you manipulate 
statistics in the way that I heard here today.
    GAO reviewed the cases involving 87 of the 92 veterans who 
were ultimately deported from 2013 through 2018. Eighteen of 
those veterans, 21 percent of the total, were convicted for 
sexually abusing a minor. Two others were convicted of sexual 
abuse. Twenty-one were convicted of a violent felony such as 
homicide, assault, or attempted homicide or assault. That's 24 
percent of the total. Nine were deported for having been 
convicted of firearms- or explosives-related crimes.
    And those cases that I'm talking about, over half of them 
were removals during the Obama administration and not under the 
Trump administration, as so many of you want to focus on.
    So, Mr. Chairman, I ask unanimous consent to enter into the 
record the following documents: the Department of Justice press 
release from September 25, 2018, entitled, quote, ``Chinese 
National Arrested for Allegedly Acting Within the United States 
as an Illegal Agent of the People's Republic of China,'' close 
quote, which summarizes the alleged facts surrounding the case 
of Ji Chaoqun, who enlisted in the U.S. Army through the MAVNI 
program and who was subsequently believed to be working at the 
direction of a high-level intelligence officer at the Chinese 
Ministry of State.
    Also, the October 2017 Department of Defense memo 
specifying that the certification of honorable service may not 
take place until security checks are complete and at least 180 
days of Active Duty service has been completed, demonstrating 
that DOD takes seriously its role in the naturalization of 
those who serve our country honorably.
    And, three, USCIS publicly available web pages outlining, 
one, the process for naturalization through military service 
and, two, the military helpline number.
    And I see my time has expired. Thank you, Mr. Chairman.
    Mr. Correa. Without objection, we'll receive that letter.
    [The information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Correa. I'd now like to call on our chairman, Mr. 
Nadler, for 5 minutes of questions.
    Chairman Nadler. Thank you, Mr. Chairman.
    Mr. Barajas, thank you for coming here and sharing your 
story. It appears stories like yours are all too common.
    A June 2019 GAO report identified 250 veterans placed in 
removal proceedings from fiscal years 2013 through 2018 and at 
least 92 veterans who were deported. As I mentioned in my 
opening statement, many of these veterans have been removed 
from the United States as a result of transgressions tied to 
PTSD, brain injury, and other physical trauma suffered while on 
Active Duty.
    How could the government, especially the Department of 
Defense, better inform military servicemembers and our Nation's 
veterans about their eligibility for naturalization?
    Mr. Barajas-Varela. Could you say that question again?
    Chairman Nadler. How could the government, especially DOD, 
the Department of Defense, better inform military 
servicemembers and veterans about their eligibility for 
naturalization?
    Mr. Barajas-Varela. We need to have some kind of program in 
place, again, where they can explain the forms that need to be 
done or--that's my suggestion for that.
    Chairman Nadler. Okay.
    Now, Ms. Stock, let me turn to you. In your testimony 
today, you laid out how the Trump administration has made life 
more difficult for green-card holders who join the military and 
then apply for naturalization.
    Were military servicemembers and/or immigration attorneys 
working on military naturalizations informed about these 
changes ahead of time or able to provide any input before the 
changes were implemented?
    Ms. Stock. No, they were not.
    Chairman Nadler. Was there any outreach?
    Ms. Stock. No. And there was no cost-benefit analysis.
    Chairman Nadler. That was my next question. There's no 
cost-benefit analysis to support this with the----
    Ms. Stock. None. In fact, the services have pushed back at 
the requirements because they say they're unreasonable and 
they're making it hard to recruit people.
    Chairman Nadler. They've pushed back on the requirements 
that DOD has imposed.
    Ms. Stock. Against DOD. The services have sent emails to 
DOD saying they don't agree with these new requirements.
    Chairman Nadler. So this didn't come from the services; it 
came from DOD upper levels.
    Ms. Stock. It came from DOD, which did not do any cost-
benefit analysis. There was no congressional hearing, no 
discussion about it externally with stakeholders, no cost-
benefit analysis on the impact it was going to have on the 
force or on military recruiting.
    Chairman Nadler. Was there a process in place for LPRs 
serving in the military to have their Form N-426, the Request 
for Certification of Military or Naval Service, which is 
essential to the naturalization process, signed by the proper 
authorities, as required by the October 13, 2017, DOD policy 
changes?
    Ms. Stock. They put out the memo, but they didn't do 
anything to educate people generally about what should be done. 
There was kind of haphazard memos put out that didn't reach to 
the lowest levels. In fact, if you talk to recruiters today, 
they'll still tell you that, oh, soldiers can be naturalized at 
basic training. They don't even realize things have changed.
    People are told that it's easy to get your N-426 certified 
but you have to wait till you get to your first unit. And then 
when you get there, you can't find anybody who will certify it, 
because there's no public education effort to tell people how 
to get it certified.
    Chairman Nadler. From your experience, what's the average 
time it takes for a servicemember to receive a response to a 
request for certification of honorable service once they 
complete the N-426?
    Ms. Stock. It's taking months, the exception being that if 
they email it to me, I have a special email and I can send it 
to somebody who will get one signed in a couple of weeks if 
you're in the Army.
    Chairman Nadler. A couple of weeks.
    Ms. Stock. But it's only if you know enough to email me 
your N-246 that that happens.
    Chairman Nadler. And if you don't, it takes months.
    Ms. Stock. It can take months. The forms are getting lost. 
People just never hear back after they submit them.
    Chairman Nadler. Now, what signal do you think that these 
DOD policy changes send to LPRs who are thinking about joining 
the military, and what signal do they send to LPRs currently 
serving in the military or who are veterans?
    Ms. Stock. Unfortunately, they send a signal that their 
service is not valued, that they are not welcome in the 
military. And they also send a signal that they should not join 
the military until after they get their citizenship, because 
they're going to face a very long haul to get their citizenship 
if they try to do it after joining the military.
    Chairman Nadler. And what DOD or USCIS support services are 
available to servicemembers seeking citizenship while in the 
military?
    Ms. Stock. There used to be very strong services because 
the basic training naturalization sites had teams that were 
dedicated to handling military cases on each of the basic 
training sites throughout the country. Those have been 
dismantled, so now it's rather ad hoc. There is a military 
helpline you can call, but you often get wrong information when 
you call the military helpline.
    Chairman Nadler. So, in other words, the bureaucratic 
requirements are increased, and the resources were decreased at 
the same time.
    Ms. Stock. That's correct.
    Chairman Nadler. Now, from your experience, what's the 
average length of time it takes to process a military 
naturalization application?
    Ms. Stock. It used to only take a few months when they had 
basic training naturalization in place. Now, in many cases, 
it's taking upwards of a year or 2 or sometimes 3 or 4 years.
    Chairman Nadler. And USCIS plans on closing most of its 
international field offices and consolidated overseas military 
naturalization--consolidating them into four hubs. I think they 
had 26 field offices; they're now going down to 4 hubs. How 
will these changes impact servicemembers and their families who 
are seeking citizenship while stationed abroad?
    Ms. Stock. Those closures will make it much harder for 
individuals to get United States citizenship.
    Chairman Nadler. And one more question. How can we stop the 
deportations of military veterans?
    Ms. Stock. Restore basic training naturalization. We will 
not have any deported vets if everyone gets naturalized before 
they leave the military.
    And I should point out that Congress put an important 
safeguard in the law allowing expedited naturalization. The law 
says that if you don't serve honorably for a period or periods 
aggregating 5 years, you can lose your citizenship that you 
gained through military service.
    So there is no reason for these misguided policies, because 
the legal means already is in the law to take care of anybody 
who's a bad actor and misbehaves after they get their 
citizenship.
    Chairman Nadler. No reason other than ill will. I thank 
you.
    I yield back.
    Mr. Correa. Thank you, Mr. Chairman.
    I'll recognize Mr. Buck, the ranking member, for 5 minutes 
of questions.
    Mr. Buck. Thank you.
    Ms. Stock, do you have a security clearance currently?
    Ms. Stock. Currently? No. I'm retired.
    Mr. Buck. Do you have any access to classified information 
that was involved in making the decisions about who would 
receive--which veterans would receive citizenship?
    Ms. Stock. I only reviewed unclassified summaries.
    Mr. Buck. And would you be surprised to know that there 
were thousands of folks who for classified reasons were not 
allowed to receive citizenship because they had ties to foreign 
countries?
    Ms. Stock. That's not correct.
    Mr. Buck. You don't believe that?
    Ms. Stock. No. The citizenship applications are actually 
not classified, so----
    Mr. Buck. No, it's classified information as to why they 
did not receive citizenship.
    Ms. Stock. It's not classified. They give you a written 
decision telling you why you're being denied citizenship.
    Mr. Buck. And so you believe that if someone has ties to 
China, to Chinese intelligence services, that there will be a 
public statement identifying that person as having ties to 
Chinese intelligence services. Is that what you're saying?
    Ms. Stock. No. What I'm saying is, when you go through the 
naturalization process, you have to complete a form, you have 
an interview, and if you're denied naturalization, you are 
given a written statement in writing explaining why you're 
denied naturalization.
    Mr. Buck. And that written statement in writing may not 
include the reasons for--the classified reasons for you not to 
be given that privilege of becoming a U.S. citizen.
    Ms. Stock. No, they will tell you directly why you're being 
denied.
    Mr. Buck. So, seriously, you're saying here today that a 
top-secret relationship--a top-secret information that has been 
developed during the Obama administration, by the way, that 
identifies an individual as having a relationship with a 
Chinese intelligence service, that that is going to be 
identified in a public document. That's what you're saying?
    Ms. Stock. No, that's not what I'm saying, Congressman. 
What I'm saying is, when you apply for citizenship, there is a 
form that asks you questions, including things like, you know, 
whether you've done this, that, or the other thing, and you 
have to answer those questions under oath. And if you lie under 
oath, they will deny you naturalization, and they will say, 
``We're denying you naturalization because you lied to us and 
said X, and X wasn't true.''
    It's given to the individual. They don't need to rely on 
classified information, and they don't.
    Mr. Buck. Well, they certainly have access to classified 
information when they make a decision about whether to grant 
someone citizenship or not.
    Ms. Stock. They don't normally, no.
    Mr. Buck. The Department of Defense doesn't have access to 
classified information?
    Ms. Stock. The Department of Defense doesn't naturalize 
people. It's DHS.
    Mr. Buck. I understand, but----
    Ms. Stock. It's the United States Citizenship and 
Immigration Services.
    Mr. Buck [continuing]. One agency of the government will 
work with another agency of the government to determine whether 
someone has a relationship that would be threatening to this 
government.
    Ms. Stock. Interestingly, DOD doesn't pass that information 
along to USCIS. This came out in a court proceeding recently, 
that DOD, if they have that information, they don't give it to 
USCIS anyway.
    Mr. Buck. Okay. So----
    Ms. Stock. But the naturalization proceeding is not 
classified.
    Mr. Buck. So it's your understanding that no one has been 
denied a--no veteran has been denied citizenship based on a 
relationship with a foreign intelligence service.
    Ms. Stock. Well, I think the case that was raised earlier, 
Chaoqun Ji, he was never naturalized.
    Mr. Buck. But that's not my question. My question is, your 
understanding is that there has never been an individual denied 
citizenship--a veteran denied citizenship as a result of 
relationship with a foreign intelligence service.
    Ms. Stock. I can't answer that because the country's been 
fighting wars since 1775 and I don't know every single case of 
somebody being denied citizenship for more than 200 years.
    But I do know that the concerns about national security 
that have been raised regarding the MAVNI program are 
overblown. And that was proven in a court case in Seattle where 
the Department of Defense came into court and presented the 
facts to the judge and the judge dismissed these concerns and 
said they were not valid.
    Mr. Buck. Well, let's get to a real simple question. Would 
you be in favor of naturalizing an individual--or for an 
individual to become a naturalized citizen if that individual 
had a relationship with a foreign intelligence service?
    Ms. Stock. Well, I'm not sure what you mean by a 
relationship with a foreign intelligence service, but----
    Mr. Buck. How about they worked for and received money from 
a foreign intelligence service to provide information about the 
United States of America?
    Ms. Stock. If the individual was a spy and they failed to 
reveal that information in their naturalization application and 
they got naturalized by accident, they could be denaturalized 
as soon as the government found out that information. They 
could be prosecuted and deported. And I'm certainly in favor of 
that.
    Mr. Buck. Again, that isn't my question. My question is, 
would you be in favor of naturalizing that person?
    Ms. Stock. I'm not in favor of naturalizing anybody who 
doesn't meet the requirements to become an American citizen, 
and certainly a foreign spy does not meet the requirements to 
become an American citizen.
    Mr. Buck. I appreciate the answer. Thank you very much.
    I yield back.
    Mr. Correa. Thank you.
    Ms. Jayapal, you're recognized for 5 minutes, ma'am.
    Ms. Jayapal. Thank you, Mr. Chairman.
    And I thank the witnesses for being here.
    The U.S. military has long relied on immigrants to protect 
our country. Within the United States, we have 2.4 million 
veterans with immigrant ties. But we also rely on assistance 
from foreign nationals abroad, including in Afghanistan and 
Iraq.
    In January of 2006, Congress created a Special Immigrant 
Visa, or an SIV, to provide a path to safety in the United 
States for Iraqi and Afghani translators who worked for the 
U.S. military and are subsequently facing danger. This is 
simple common sense, in my view. When people put their lives on 
the lines to defend our country, the only right thing to do is 
make sure that they and their families are protected.
    For over a year now, I have worked with Congressman Raskin 
and a number of Republican offices to advocate for a gentleman 
that I will call Muhammad Kamran, a translator who worked with 
the U.S. military and several national and international 
agencies for nearly a decade in Afghanistan.
    Ms. Stock, in your experience as a lieutenant colonel in 
the Military Police Corps and U.S. Army Reserve, would you 
agree that the assistance of native translators in countries 
like Afghanistan and Iraq have been critical to U.S. military 
operations in those countries?
    Ms. Stock. Yes, they're absolutely critical.
    Ms. Jayapal. And what it is that makes them so critical?
    Ms. Stock. We can't operate in those countries effectively 
if we don't have people by our side who speak the local 
language and understand the local culture.
    Ms. Jayapal. And what level of danger are those translators 
putting themselves in when they agree to do that job?
    Ms. Stock. They're putting themselves in extreme danger. 
Many of them have been killed, their family members have been 
murdered because they've sided with the United States in a 
conflict overseas.
    Ms. Jayapal. Unsurprisingly, people like Mr. Kamran face 
persecution and retaliation, as you mentioned, due to their 
service. In fact, Mr. Kamran and his family have faced 
persistent persecution, including assassination threats from 
the Taliban. Just 1 week ago, Mr. Kamran was arrested by 
military police, and there's a possibility that he will be 
disappeared. And yet State has denied Mr. Kamran's application 
on a, quote, ``discretionary basis.''
    His case is part of a larger trend. State Department data 
shows a 60-percent drop in SIVs issued to Afghanis. The drop 
among Iraqis is even worse, from 2,500 in 2017 to 181 in 2019, 
a drop of over 90 percent.
    Ms. Stock, in your opinion, what is causing these delays 
and drops in admission?
    Ms. Stock. A lot of it is fear on the part of the 
bureaucrats who are supposed to be conducting background checks 
on these individuals. They're afraid to approve anyone.
    And it's also a lack of resources and a lack of attention 
by the leadership, who doesn't seem to want to focus on the 
essential process of saving folks who put their lives on the 
line for America.
    Ms. Jayapal. How do we improve those programs to ensure 
access to safety for our Iraqi and Afghani allies under the SIV 
program?
    Ms. Stock. Well, Congress did pass a statute that set a 
deadline, but unfortunately the bureaucracy is ignoring the 
deadline. So I think Congress needs to provide strong oversight 
to ensure that those statutes are followed.
    Ms. Jayapal. And what does the vetting process currently 
look like for SIV applicants? They've already been vetted to 
serve alongside our troops. Isn't that quite a bit of heavy 
vetting that has already been done for these individuals?
    Ms. Stock. They're already heavily vetted. And they have 
huge files filled with testimonials about their loyal service 
to the United States, sometimes over a period of many, many 
years. It's unclear what exactly is going on in the subsequent 
vetting that seems to take years and years. From what I can 
tell, most of it is simply a file being put on a shelf and 
nothing happening.
    Ms. Jayapal. And beyond the immediate humanitarian concerns 
to protect those who have risked their lives for us, another 
thing that concerns me is the message that we're sending to 
potential future allies.
    So how does this failure to protect these people impact our 
national security interests and the ability of our troops to 
safely do their jobs in Iraq and Afghanistan today?
    Ms. Stock. It's quite bad. The people who are potentially 
out there that might be willing to help us in the future are 
going to turn and look at how Muhammad was treated and say, ``I 
don't want to take a chance. I'm not going to help you next 
time.''
    Ms. Jayapal. Mr. Chairman, the treatment of people who have 
put their lives on the line defending our country is just 
unacceptable. Whether it's immigrants living here who have 
signed up to protect our country or people abroad who have done 
so despite significant threats to their and their families' 
lives, it is our duty to stand alongside these communities and 
demand justice.
    I thank you for holding this hearing, and I yield back.
    Mr. Correa. Thank you, Ms. Jayapal. I fully agree with you.
    And now I'd like to call on Ms. Garcia from the good State 
of Texas.
    Ms. Garcia. Thank you, Mr. Chairman. And thank you for 
convening this hearing on this very important topic. I know 
that this is something that many of us in Texas are very 
concerned about.
    Over 20 percent of people who have been awarded the Medal 
of Honor were not born in the United States. My State of Texas 
is home to both the second-highest number of noncitizens and 
the second-highest number of veterans in the Nation. Therefore, 
Texas is home to a high number of noncitizen veterans, making 
this topic especially important to many of us, particularly 
many of my constituents.
    According to a 2017 report from the National Immigration 
Forum, about 40,000 immigrants currently serve in the Armed 
Forces and about 5,000 noncitizens enlist each year.
    We must not forget the people behind these numbers, like 
Mr. Frank de la Cruz, who came to the United States as a young 
boy with his family in 1978 and settled in Texas. De la Cruz 
graduated from high school and joined the Navy, as he says, out 
of pride for his country. Following an honorable discharge, de 
la Cruz went on to serve in the Army National Guard. He also 
worked at his local Department of Veterans Affairs office.
    While serving in the Navy during the Persian Gulf War, de 
la Cruz and the ship crew would do what many do when they would 
dock: They would go out drinking, perhaps using it as a way to 
cope with their anxiety about the war.
    Later in life, unfortunately, he was convicted of a DWI. He 
was unable to afford an attorney. He was deported back to 
Mexico. When his wife asked him why he can't adjust to life in 
Mexico, de la Cruz responds simply with, ``This isn't my 
life.''
    It is true that immigrants are often the most patriotic 
Americans, as they have experienced different places and are 
able to truly appreciate the contrast of how wonderful it is to 
live in the United States.
    As has been noted, noncitizens have in fact joined the 
Armed Services since the Revolutionary War and, since then, 
have likewise joined ranks and fought alongside their citizen 
counterparts during every major conflict, from World War--not 
``World War,'' but War of 1812 to the current conflicts in the 
Middle East.
    So I thank our witness here today who speaks for the 
veterans that have been deported and all those that join him 
today. Muchisimas gracias.
    And I begin my question with you, sir, Mr. Barajas. You 
said that you don't really get the details about the process. 
Do you get any legal assistance?
    Mr. Barajas-Varela. Unfortunately, when I was in the 
military, there was--actually, there was. There was, I believe, 
JAG that you could go through. But, again, there was nobody 
that really directed me towards the path. And then a failure on 
my part. But I really think that we need to make sure either 
our squad leaders or somebody at some point, you know, makes 
sure that that happens.
    Ms. Garcia. But do you know if they get legal assistance 
now?
    Mr. Barajas-Varela. I'm not sure what the--what it is right 
now, if there's JAG or some kind of department that the 
military has. I've been out for almost 20 years.
    Ms. Garcia. All right.
    Well, my colleague, Congressman Vicente Gonzalez, also a 
Texan, introduced the Repatriate Our Patriots Act, a simple 
bill that would allow special veterans a path to citizenship. 
These special veterans include those individuals who are 
honorably discharged from the Armed Forces, have not been 
convicted of a voluntary manslaughter, murder, rape, sexual 
abuse of a minor, or any offense related to terrorism.
    Do you support passage of this bill?
    Mr. Barajas-Varela. Yes.
    Ms. Garcia. That's good.
    Do you, Ms.--is it ``Baquelera''?
    Ms. Pasquarella. Thank you. ``Pasquarella.''
    Ms. Garcia. ``Pasquarella.'' Okay. I didn't need Spanish 
for that.
    Ms. Pasquarella. I have not reviewed the bill, so I can't 
give you an affirmative ``yes'' or ``no,'' but it sounds like 
something I'd support.
    Ms. Garcia. Right.
    And there was something said by one of my colleagues about 
how this wasn't really double punishment, but I'm going to read 
straight out of ``The Land of the Free, No Home to the Brave.'' 
It's a report from the Texas Civil Rights Project, which I'd 
like to be entered into the record. I ask for unanimous 
consent.
    Mr. Correa. Without objection.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Ms. Garcia. And it says noncitizens have, in fact, joined 
the Armed Forces, and it says that it really is a double 
punishment, because you do go through the criminal justice 
system and you are convicted; then that conviction then is used 
to deport you, and then you're deported. So it's double 
punishment.
    And he said--I forget what my colleague said, but he said 
that there was no logic to that. And do you agree or disagree 
that that is double punishment? You, ma'am.
    Ms. Pasquarella. Thank you. Absolutely agree. It is 100 
percent double punishment. People serve their time in criminal 
custody, they pay the price for that crime, and they should go 
home, the same way that citizen veterans go home. Instead, they 
face lifetime banishment. It's as if they're serving a life 
sentence, because they can't be with their families, they can't 
be with everything they know in life, which is here in the 
United States.
    Ms. Garcia. Thank you.
    I yield back, Mr. Chairman.
    Mr. Correa. I thank you very much.
    And now I'd like to call on Mr. Neguse from the State of 
Colorado.
    Mr. Neguse. Thank you, Mr. Chair, and thank you for hosting 
this important hearing.
    Also, I want to start by thanking our veterans in the room 
for your bravery and service to our country. It is thanks to 
you and others fighting for our country's security that we can 
be here today.
    As has been said by many of my colleagues, under this 
administration, in my view, immigrants have been under constant 
attack, including those fighting for our freedom.
    Immigrants have served in the U.S. military since the 
Revolutionary War and continue to serve today. Most are lawful 
permanent residents. About 511,000 foreign-born veterans are 
residing in the U.S. and represent 3 percent of the total 
veteran population of 18.8 million.
    They fill vital roles in the military when there are not 
enough U.S. citizen recruits. For example, certain nationals of 
Iraq and Afghanistan, as has been mentioned, serve as 
translators or interpreters. They would be allowed to apply for 
LPR status through a Special Immigrant Visa, but their 
applications are being delayed, which can make them at risk of 
being targeted for assisting the U.S.
    The changes in numerous policies are atrocious and hurting 
veterans and their families. They have made it harder for 
military servicemembers to naturalize, for their families to 
adjust status, and to receive protection for deportation.
    Instead, in my view, we should be focusing on ensuring that 
veterans receive the medical care they earned, as well as help 
them with their immigration cases.
    The U.S. Immigration and Customs Enforcement have policies 
that require them to take additional steps when handling cases 
of potentially removable noncitizen veterans. However, a report 
by the U.S. GAO found that agencies were unaware of the 
policies in place for veterans in removal proceedings.
    It is beyond disheartening to hear that our veterans are 
not being given the appropriate level of review on their 
immigration cases. And let us be clear: It is un-American to 
deport immigrants fighting for our safety and our freedom. We 
should not leave them to feel abandoned and to feel hopeless.
    Mr. Hector Barajas-Varela, I want to first thank you for 
your service to our country.
    Mr. Barajas-Varela. Thank you.
    Mr. Neguse. You chose to enlist in the Army at age 17. You 
served for 5 years, and you earned an honorable discharge in 
2001. As a veteran and as a green-card holder, you lacked the 
protection of citizenship, and you were deported after serving 
time for a criminal charge after discharge.
    Could you please walk us through how this may have been 
different if you would have received guidance from the U.S. 
military on how to apply for citizenship, either during or 
after your service to this country?
    Mr. Barajas-Varela. I firmly believe that if, you know, my 
squad leader would have sat me down and--you know, some people 
say that we shouldn't hold your hands to, you know--that we're 
not there to hold your hands. But, literally, we're there to 
show you how to march; we make sure that your power of attorney 
is done. So why not make sure we sit down with our soldiers and 
make sure that that's taken care of so before they go off to 
Afghanistan or Vietnam that they're already U.S. citizens?
    So it's very important to take care of our soldiers.
    Mr. Neguse. Thank you.
    Lieutenant Colonel Stock, thank you for your service as 
well, and thank you for being here today.
    In your testimony, I believe--certainly in your written 
testimony, which I reviewed, but I suspect in your oral 
testimony as well, you mentioned that the Department of Defense 
issued two significant policy changes on October 13, 2017, that 
made it harder for military servicemembers to naturalize.
    From your experience, what is the average time that it 
takes for a servicemember to receive a response to a request 
for certification of honorable service once they complete their 
USCIS Form N-426?
    Ms. Stock. As I mentioned earlier, it varies dramatically, 
but right now--sometimes they don't get a response at all, but 
it's taking many, many months since the policy change.
    It used to happen in a matter of minutes. You could walk 
into your local military personnel office, hand them the one-
page form and say, could you please certify that I'm serving 
honorably? A clerk would look up your record on the system, and 
you would get an officer signing your form almost immediately. 
But now it's taking months and months.
    Mr. Neguse. A matter of minutes----
    Ms. Stock. Previously.
    Mr. Neguse [continuing]. To, now, a matter of months, to 
potentially never receiving an answer.
    Ms. Stock. A lot of people tell me they never get an 
answer. They send the form in, and they never hear anything.
    Mr. Neguse. What message does that send to LPRs who are 
thinking about joining the military?
    Ms. Stock. It sends a terrible message. And it's one of the 
reasons why a lot of LPRs are now contacting me and telling me 
they've decided not to join the military. They're going to wait 
until they get their citizenship as a civilian, which takes 
less than 6 months right now in many parts of the country.
    They can file electronically if they're civilians. They 
can't do that if they're in the military. They have to send a 
paper packet in to Chicago through the mail, which gets lost. 
Military people are often told their packet's been lost.
    I was in Sacramento a few weeks ago with a green-card 
holder who had finished all his training, was supposedly 
eligible for citizenship. He walked into the building for his 
naturalization interview, and the officer said, ``I'm sorry 
your lawyer flew here several thousand miles to be with you 
today, but we can't find your packet in the building. It was 
barcoded into the building, and we've lost it. And we'll let 
you know when we find it.'' We have not heard from them ever 
since.
    Mr. Neguse. Thank you, Lieutenant Colonel. And the stories 
you share today are stories we certainly need to hear, and I 
hope that the administration is listening.
    And thank you, Mr. Chairman.
    Mr. Correa. Thank you, Mr. Neguse.
    Now I'd like to call on Ms. Mucarsel-Powell from Florida.
    Ms. Mucarsel-Powell. Thank you, Mr. Chairman.
    And thank you, for all the witnesses, for being here this 
afternoon and sharing your stories.
    Florida is home to one of the largest veteran populations 
in the country. We actually have the third-largest population 
of veterans in Florida in the country, around 1.5 million who 
live there. My district is also home to some veterans that have 
been waiting for the naturalization process.
    And one of the things that I just want to make very clear 
is that, for those members that have served our country, 
several of you here today, we owe you our deepest respect and 
our gratitude. But I also hear from servicemembers and veterans 
about the stress that serving our country puts on their 
families and their children. Servicemembers sacrifice a great 
deal, and so do their loved ones. We should not be making the 
lives of servicemembers, veterans, and their families any 
harder.
    Our men and women in uniform put their lives on the line 
and have earned the privilege to live and work in our country. 
And I am a naturalized citizen myself, and I know how arduous 
the process is to become a legal U.S. citizen. But if we're 
asking our servicemembers to put their lives on the line to 
fight for our freedom, we need to make sure that the 
naturalization process is much easier for them.
    But, under this administration, we've seen that the number 
of military naturalizations has declined by 44 percent, almost 
half. And it's just unacceptable. We should not be making it 
more difficult for honorable members of our military service to 
naturalize.
    And my first question: Ms. Stock, can you explain to us why 
those numbers have dropped significantly in these past 2 years?
    Ms. Stock. Well, they've dropped for a couple of reasons. 
One is DOD has made it harder for green-card holders to join 
the military. Second--and if you don't join, you can't apply 
for naturalization.
    Second, they've made it harder for them to get the form 
signed that they need in order to apply. And you can't apply 
without this form, and if you can't get it signed, then you're 
not eligible to apply.
    And then they've made it more difficult to get citizenship. 
They're applying different standards to military people that 
are inappropriate.
    An example is a woman who's sitting in the audience today, 
Yea Ji Sea. She was wrongly denied naturalization by U.S. 
Citizenship and Immigration Services. They denied her 
application while she was serving on Active Duty in the 
military. She then reapplied for naturalization. She was 
discharged from the military and approved for naturalization 
after the ACLU took her case and filed a lawsuit against the 
government.
    So we have a case of somebody serving honorably on Active 
Duty who gets wrongly denied citizenship; she leaves Active 
Duty and is approved for citizenship. This makes no sense.
    Ms. Mucarsel-Powell. And I'm assuming she wasn't a Chinese 
spy.
    Ms. Stock. Well, I think she's from South Korea.
    Ms. MuCarsel-Powell. Oh. Okay.
    But was there a reason given to her when she was serving 
that her citizenship was denied?
    Ms. Stock. Yes. They said she lacked good moral character. 
She was serving honorably on Active Duty, and she was told that 
she lacked good moral character.
    This is a catchall term they use when they have come up 
with some excuse for you're in the military and we don't think 
you should be a citizen, so we're going to accuse you of 
lacking good moral character.
    Ms. Mucarsel-Powell. Okay. Well, it seems like a lot of 
these changes in these procedures are just cruel, without an 
explanation to that. So what's the purpose of changing this 
policy, do you think?
    Ms. Stock. As I said earlier, it's driven by xenophobia.
    Ms. Mucarsel-Powell. And how--can you prove that to us 
right now?
    Ms. Stock. I can prove it.
    Ms. Mucarsel-Powell. Can you give us----
    Ms. Stock. In fact, I'm hoping----
    Ms. Mucarsel-Powell [continuing]. Some clear evidence of 
that?
    Ms. Stock. I can prove it.
    Ms. Mucarsel-Powell. Because I don't think my colleagues 
sometimes understand that that exists in this country.
    Ms. Stock. It does exist. And I can prove it by directing 
the distinguished members of the subcommittee to start taking a 
look at some of the so-called background checks that DOD is 
doing on immigrants who join the military. They are laughable 
and bizarre.
    And they say things like, you have a relative who served in 
the South Korean military; therefore, this is derogatory 
information and requires your discharge from the military, 
making you ineligible for American citizenship. They say things 
like, your parents are from a foreign country; that's 
derogatory information.
    Now, of course, DOD, when these individuals got recruited, 
knew they were immigrants. By definition, all of their parents 
are foreign.
    Ms. Mucarsel-Powell. Yeah.
    Ms. Stock. If their parents were citizens, they wouldn't be 
immigrants. And yet they're being told that this is derogatory 
information requiring their discharge from the military.
    Ms. Mucarsel-Powell. Thank you, Ms. Stock.
    One last question. I want to ask you, if you could, speak a 
little bit about what just happened with the USCIS decision to 
no longer consider children of military servicemembers and 
other government employees as residing in the U.S., for 
purposes of acquiring U.S. citizenship. So kids that are born 
outside of the United States but their parents are U.S. 
citizens are now being denied U.S. citizenship.
    Can you talk briefly about that? I'm very concerned about 
this new rule.
    Ms. Stock. Yes. This was not something that the agency 
warned anybody about ahead of time, although I'm told 
internally within DOD they floated it, but they didn't float it 
with anybody who understood immigration law. If they had 
floated it ahead of time, they would've learned that lots and 
lots of children were going to be affected by this. But because 
the agency doesn't understand immigration law, they didn't 
realize -- they claimed there were only 25 children affected, 
when that's not true.
    So what happened was they said basically they're going to 
punish people who choose to be stationed overseas or who are 
sent overseas. If they lived in the U.S., their kids would 
automatically get citizenship, but because they're not living 
in the U.S., the kids are not going to get automatic 
citizenship, and the parents are going to have to file 
convoluted and expensive applications to get them recognized as 
citizens.
    Ms. Mucarsel-Powell. And this is for kids of servicemembers 
who are American citizens.
    Thank you. I've run out of time. Thank you so much.
    Ms. Stock. That's correct.
    Mr. Correa. Thank you very much.
    I'd like to call on Ms. Escobar from the good State of 
Texas.
    Ms. Escobar. Thank you, Mr. Chairman. And thank you for 
having this very important hearing today.
    Many thanks to our witnesses. Really appreciate the time 
that you've spent helping educate this subcommittee on these 
issues.
    I want to thank the veterans and their families who are in 
the audience, who flew all the way to Washington, D.C., to make 
sure that it wasn't just your voices that were heard but the 
voices that you bring with you of all veterans who have had to 
endure, really, the trauma that you all have endured after 
having served our country and protected our Nation.
    Thank you for your service. And please share my gratitude 
and the gratitude that so many of us have with your fellow 
servicemembers who have had to endure the same kind of trauma. 
Please tell them we're grateful for their service.
    I represent El Paso, Texas, which is a great, safe, secure 
community on the U.S.-Mexico border, which is also a home to 
Fort Bliss, one of the most important military installations in 
the country. And so, many of these issues, for me--El Paso is 
an intersection of those issues, of immigration and, really, 
the attacks on migrants that we've seen under this 
administration, but also trying to uplift and support veterans 
and military personnel.
    And it is--really, it's been very difficult to watch how 
our country has turned our backs not just on allies but turned 
our backs on servicemembers who have fought honorably for our 
country. And, yes, this is a double punishment; there is 
absolutely no doubt.
    You know, I just--I want to remind some of my colleagues 
that we seem to have come a long way in recognizing how 
veterans, after they have served honorably, face these really 
incredible challenges reentering into communities after--
especially after being in-theater and serving in war. And so we 
go the extra step. We've created veterans services programs. 
We've created specialty courts for veterans convicted or being 
tried for DWI or for drug-related offenses so that we can be 
there for veterans who have been there for us. But it's a 
different story when the veteran is an immigrant, it appears.
    Ms. Stock, you mentioned something that I kind of--I want 
to touch a little bit on. You mentioned the DOD background 
checks. And you said some really interesting things about the 
challenges with those DOD background checks.
    Is there an appeals process for personnel who want to 
appeal some of the things that you outlined when Ms. Mucarsel-
Powell was questioning you?
    Ms. Stock. There wasn't until some of the immigrants filed 
a lawsuit, and now there's a lawsuit pending in the District 
Court for the District of Columbia. The Army, in response to 
the lawsuit, has decided to institute some sort of process, due 
process. Because the immigrants were being kicked out of the 
military without being told why they were being kicked out, and 
now the Army has agreed that it will provide some due process.
    And, again, if you look at these backgrounds checks, 
they're not--they don't have anything to do with citizenship 
eligibility. The military is applying the top-secret 
adjudicative guidelines to immigrants, and the top-secret 
adjudicative guidelines say that anything foreign is 
derogatory.
    So it's a mismatch and a mistake to apply those 
adjudicative guidelines to determine whether an immigrant is 
eligible to serve in the military. It causes massive failure 
rates of the background checks, because all the immigrants have 
foreign parents. They have foreign bank accounts because they 
emigrated from a foreign country and they had a foreign bank 
account. They have foreign relatives who served in the South 
Korean military, one of our allies, for example, and that's 
something that causes a failure.
    So DOD internally has acknowledged that they have a 
problem, but they can't get out of it because there's a 
bureaucratic struggle going on between the folks at the 
consolidated adjudications facility, who cling to their 
adjudicative guidelines even though they don't apply to 
immigrants--and there is now supposed to be some due process, 
but it's spotty. And there are still immigrants being 
discharged who are not being told why they're being discharged. 
They're not given a chance to refute wrong information in the 
record.
    It is a travesty, and it's something I hope Congress will 
look into. I think it's ripe for a GAO investigation into these 
background checks. And I would add that they're costing the 
government thousands upon thousands of dollars. They are 
spending thousands of dollars to figure out that immigrants 
have foreign parents.
    Mr. Correa. Thank you, Ms. Escobar.
    Ms. Escobar. Thank you. I yield back.
    Mr. Correa. I'd like to call on Ms. Jackson Lee from Texas.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    Thank you to the witnesses that are here.
    If I might have those who have served in the United States 
military raise their hands?
    Let me thank you so very much for your service. My applause 
to you, if my hands could go.
    Are there men and women here that have served in combat?
    Thank you so very much.
    I recall being here for 9/11, and I'm not trying to give 
ancient stories, but I remember, as the call came for 
individuals with a passion and commitment to one's country, Mr. 
Chairman, there were numbers and numbers of legal permanents 
residents who heeded the cry, both for the war in Afghanistan 
and the war in Iraq.
    Interestingly enough, I have no recollection of any ICE 
involvement on anything. I do remember a series of legislative 
initiatives to provide for opportunities for soldiers in-
theater to be naturalized. Naturalization ceremonies were going 
on.
    Isn't it interesting? The country was in need. Men and 
women who were either immigrants themselves or immigrant 
parents took the oath, put on the uniform unselfishly, and 
offered their lives. There are legal permanent residents who 
are in the Nation's military cemeteries or in cemeteries today 
from the Iraq and Afghan war.
    So I am baffled about where we are today. And I think this 
is a very important hearing, but I also believe that this 
should be brought to the attention of the Armed Services 
Committee. Because if there is joint legislation, it would have 
to be in combination with the Armed Services Committee so the 
Department of Defense can wake up.
    So let me just--and forgive me if these questions have been 
asked and answered. But there is a standard that ICE is 
supposed to utilize when they're addressing veterans. They need 
to consider criminal history, evidence of rehabilitation, 
family and financial ties to the United States, employment 
history, health, and community service. And it's come my 
attention, with our report, that some of the folk in ICE don't 
even know they're supposed to do that or have the list of 
criteria to even address.
    So if I could ask both Hector Barajas-Varela and Jennie 
Pasquarella--first, Hector, if you can tell me what kind of 
complexity that puts your members or who you interact with, 
when they're not given any fair assessment by the local ICE 
officer. Because they're not seeing Washington; they're seeing 
ICE where they are. Could you answer that, please?
    Mr. Barajas-Varela. Sure. I mean, it creates a problem 
where--one of the things that--the way it could be fixed is 
where--you know, when I went to L.A. County jail, they actually 
asked me whether I was a veteran or not, and then they go 
through certain procedures. And definitely in immigration 
there's, you know--they don't even ask you if you're a veteran 
or not. So they probably don't even--you know, they don't know 
what procedures to take. So they definitely need to make sure 
that we hold the government accountable to that.
    Ms. Jackson Lee. So we need to put in a separate construct 
for veterans. We should require both Immigration Services, our 
ICE component, ``You have to ask the question. And you have to 
prioritize veteran immigrants in your assessment of 
naturalization or processing,'' rather than, ``I've lost your 
packet. It's so insignificant that I've lost your packet.''
    Jennie, can you help us with the work that you do and the 
frustration, I guess, that you face?
    Ms. Pasquarella. Thank you, Congressman. Yes.
    We have to address it on two fronts. First, on the front 
end, when a person is encountering ICE, there should be a 
requirement that, at a minimum, ICE asks every person they 
encounter whether or not they are either serving in the 
military or are a veteran. That's the first thing that we know 
they're not doing.
    Second, they should actually implement the policies that 
they have and, ideally, improve the policies to actually do 
that assessment--once they know the person is a veteran, to do 
that assessment to determine, by weighing all the equities, 
their service, everything else about their life, whether 
removal actually is a sensible policy decision.
    But then on the back end, we also have to ensure that, even 
if ICE is putting somebody into proceedings, that our law 
accounts for the fact that somebody may have served our country 
and deserves to remain in the United States.
    And I want to correct something that was said earlier by 
Mr. Metcalf because it's very important. The law in 1996 
eliminated all judicial discretion, including cancellation of 
removal. Cancellation of removal was not available for Hector 
when he was being deported from this country because the law in 
1996 eliminated any ability for a judge to consider military 
service as well as any other equities in a person's life.
    So we have to address it with ICE through sensible policy, 
but we also have to reform the law.
    Ms. Jackson Lee. Okay.
    Mr. Metcalf. Ms. Jackson Lee.
    Mr. Correa. Mr. Metcalf, do you want to respond to that?
    Mr. Metcalf. Thank you. I do. I really do. Thank you, Mr. 
Chairman.
    Ms. Jackson Lee, I just want to tell you, I was a judge in 
Miami. I can't tell you that every case that would've come 
before me under the rubric that's been testified to would have 
survived a challenge on cancellation from the government. I 
know that I granted 75 percent to 80 percent of the 
applications that came before me. And let me also add, I was 
typical of judges across the country.
    Now, when you add--and if you may, ma'am--or, if I may, 
ma'am, when you add the veteran's overall criminal history, his 
or her rehabilitation, family and financial ties to the U.S., 
his employment history, his health, his community service, in 
addition to duty status, war zone duty, years in service, and 
decorated--decorations awarded, that is calling on the judge to 
do a much deeper dive. It calls also on the agency looking at 
that person to do a deeper dive.
    Now, I suggest to you that when judges have that kind of 
blush in front of them on an administrative take, they're going 
to consider that and be informed by that in their judgments. It 
certainly informed mine on people who were not in front of me 
as veterans but as people who had had a host of problems which 
prompted the U.S. to seek their removal.
    So I want to--I want to balance----
    Ms. Jackson Lee. Thank you, Mr. Metcalf.
    Mr. Metcalf [continuing]. The opinion of Ms. Pasquarella by 
that information.
    Mr. Correa. Thank you.
    Ms. Jackson Lee. Thank you.
    Mr. Correa. If I can----
    Ms. Jackson Lee. Are you going to yield to this gentlelady 
in----
    Mr. Correa. Yes. I would like to yield to Ms. Stock to--you 
raised your hand?
    Ms. Stock. I think the disconnect here is that the statute 
bars judges from granting any relief under cancellation of 
removal to green-card holders who are convicted of a so-called 
aggravated felony.
    And, if I may, I can give you an example. I know of an 
individual serving currently on Active Duty in the Navy. He's a 
career Navy person who, long ago, got convicted of something 
called obstruction of justice in Virginia--at the time, a very 
minor offense. He was told that it would not have any impact on 
his military career, and he went on to serve a full career in 
the United States Navy.
    When he applied for citizenship, he was told that this is 
an aggravated felony under immigration law and he's not 
eligible for citizenship. They told him he would not be 
deported until he leaves the Navy. So he's trying to put off 
his retirement. But if he were in front of the Honorable Mark 
Metcalf, he would not be eligible for cancellation of removal 
because the government considers his conviction to be an 
aggravated felony and makes him ineligible for cancellation.
    Mr. Metcalf. I would take that deeper dive, Mr. Chairman.
    Mr. Correa. Thank you very much. With that----
    Ms. Jackson Lee. Due process, Mr. Chairman, requires us to 
look to the options of the individual who's being victimized.
    So I yield back. I thank you.
    Mr. Correa. Thank you.
    If I can, I call on Ms. Scanlon from Pennsylvania.
    Ms. Scanlon. Thank you very much.
    And thank you for your testimony, all of you, on this 
important issue, the impact of current immigration policies on 
servicemembers and their families.
    I think it's really important that we look at the impact of 
the--and the cost to our national security and our national 
honor of the current administration's policies and the impact 
they're having on our Armed Forces and those who work with us. 
The fact that we are breaking our word to men and women who've 
put their lives on the line for this country is profoundly 
disturbing to me.
    I also want to note the irony that, of the two portraits 
that hang on the floor of the House of Representatives, one is 
George Washington, and another is a foreign national who fought 
for us, and that would be the Marquis de Lafayette. So, 
certainly, we have a very long history in this country of 
relying upon persons of goodwill who may not be American 
citizens.
    But with respect to the impact on our national security, I 
have some familiarity with the issue of the SIV applicants, the 
Iraqi and Afghani nationals who have worked with our Armed 
Forces. Before I came here almost a year ago, I worked with the 
IRAP group, which was a coalition of law students and law firm 
volunteers who would represent Iraqi and Afghani translators 
and drivers who worked with our Armed Forces.
    And, in particular, I recall one gentleman who had worked 
with our Armed Forces in Afghani, who had worked with our Armed 
Forces as a translator for 5 years. And when he recognized a 
Taliban member on one of our bases and reported him, thereby 
saving the lives of many of our forces, he then had to go into 
hiding. And he remained in hiding with his family for 4 years 
while his application was processed.
    He did finally get here, but it was a long process. And 
I've certainly heard of additional folks who have had more 
difficulty and that have been unable to get their applications 
processed.
    So just the, you know, impact on national security is huge. 
And I can't recall if you had figures on what the processing 
rates are at this point. If you could respond to that?
    Ms. Stock. It's in my written testimony.
    Ms. Scanlon. Okay.
    Ms. Stock. I would refer to that.
    Ms. Scanlon. And those processing rates have gone down?
    Ms. Stock. They have dropped significantly. And the travel 
ban has also affected the ability of Special Immigrant Visa 
applicants.
    We're also seeing an uptick in people who have been 
approved initially but now suddenly, for mysterious reasons 
unknown to anyone, they've been--approvals have been revoked.
    And there's an appeal process that doesn't work. They send 
in their requests for information to rebut the allegations, and 
they never hear anything again.
    In fact, I got an email today, right before the hearing, 
from somebody who had sent in a response to completely 
erroneous allegations made against him after he was granted a 
visa but then they revoked it, and he sent in his rebuttal, 
proving conclusively that these allegations were incorrect, and 
he hasn't heard anything.
    Ms. Scanlon. All right. Our case was very similar. We had 
to do a FOIA request to various officials and take it all the 
way up to the court of appeals. Yes.
    With respect, I was also concerned about the testimony 
concerning folks who join our military with the expectation 
that they would become citizens and the fact that our military 
is now having trouble recruiting citizens to fill those slots.
    Can anyone on the panel speak that?
    Ms. Stock. Special Operations Command has conveyed to me 
that they are having trouble finding people that speak the 
languages of the countries in which they're operating and that 
this has reached a critical point. They can't find people.
    The other group of people that were helpful are the folks 
that know about cyber war. It's just a fact that we have a lot 
of legal immigrants in the United States who have great cyber 
skills. But they can't put them to work for the United States 
unless they're American citizens, because you have to be an 
American citizen to get a security clearance. And if they can't 
get into the military and can't get their citizenship, then 
they can't fill the ranks of Cyber Command. And Cyber Command 
is short of skilled people right now.
    Ms. Scanlon. So, in a country that has always relied upon 
the skills and talents of immigrants, we're turning folks away 
for one of our highest and most important duties.
    Ms. Stock. That's correct.
    Ms. Scanlon. Thank you.
    I yield back.
    Mr. Correa. Thank you very much, Ms. Scanlon.
    Let me, first of all, conclude today's hearing, but, first, 
I wanted to make a couple of comments, which is: A lot of the 
policies we're talking about here, it's not a Democrat or 
Republican issue. A lot of the policies we're fighting today 
precede the current administration and go back to Democratic 
administrations. And I'm hoping my colleagues from the other 
side of the aisle will join us in coming up with some good, 
commonsense legislation.
    You witnesses here today, you identified some very solid 
public policy decisions, proposals that we need to move 
forward. And I hope we can, because this is about America. It's 
about keeping our commitment to our veterans and making sure 
that no soldier is left behind. So I'm hoping we can move 
forward.
    And let me thank all of the witnesses here today, our 
veterans that are here today. We can never thank you enough for 
your service to our country.
    And I want to conclude this hearing by once again thanking 
the panelists, our witnesses.
    And, without objection, all members will have 5 legislative 
days to submit additional written questions for the witnesses 
or additional materials for the record.
    Mr. Correa. And look forward to continuing to work with 
you.
    And, without objection, this committee is now concluded.
    [Whereupon, at 4:31 p.m., the subcommittee was adjourned.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
</pre></body></html>
